<html>
<title> - STRENGTHENING THE FEDERAL ACQUISITION WORKFORCE: GOVERNMENT-WIDE LEADERSHIP AND INITIATIVES</title>
<body><pre>[Senate Hearing 111-388]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-388
 
                 STRENGTHENING THE FEDERAL ACQUISITION 
                 WORKFORCE: GOVERNMENT-WIDE LEADERSHIP 
                            AND INITIATIVES 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 5, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-121 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                     Lisa M. Powell, Staff Director
                Evan W. Cash, Professional Staff Member
                Shelley K. Finlayson, Legislative Fellow
             Jennifer A. Hemingway, Minority Staff Director
                      Tara Shaw, Minority Counsel
                   Benjamin B. Rhodeside, Chief Clerk

















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     5

                               WITNESSES
                       Wednesday, August 5, 2009

Hon. Jeffrey D. Zients, Deputy Director for Management, and the 
  Nation's Chief Performance Officer, Office of Management and 
  Budget.........................................................     3
Nancy H. Kichak, Associate Director for Strategic Human Resources 
  Policy, U.S. Office of Personnel Management....................     7
David A. Drabkin, Acting Chief Acquisition Officer, U.S. General 
  Service Administration.........................................     8
Hon. Elaine C. Duke, Under Secretary for Management, U.S. 
  Department of Homeland Security................................    19
William P. McNally, Assistant Administrator for Procurement, and 
  Deputy Chief Acquisition Officer, National Aeronautics and 
  Space Administration...........................................    20
John R. Bashista, Deputy Director, Office of Procurement and 
  Assistance Management, U.S. Department of Energy...............    22
Deidre A. Lee, Executive Vice President of Federal Affairs and 
  Operations, Professional Services Council......................    24

                     Alphabetical List of Witnesses

Bashista, John R.:
    Testimony....................................................    22
    Prepared statement...........................................    81
Drabkin, David A.:
    Testimony....................................................     8
    Prepared statement...........................................    56
Duke, Hon. Elaine C.:
    Testimony....................................................    19
    Prepared statement...........................................    62
Kichak, Nancy K.:
    Testimony....................................................     7
    Prepared statement...........................................    50
Lee, Deidre A.:
    Testimony....................................................    24
    Prepared statement with attachments..........................    87
McNally, William P.:
    Testimony....................................................    20
    Prepared statement...........................................    76
Zients, Hon. Jeffrey D.:
    Testimony....................................................     3
    Prepared statement...........................................    43

                                APPENDIX

Background.......................................................   102
Project Management Institute, prepared statement.................   112
Questions and Responses to questions:
    Mr. Zients...................................................   115
    Ms. Kichak...................................................   119
    Ms. Duke.....................................................   123
    Mr. McNally..................................................   128
    Ms. Lee......................................................   130


                       STRENGTHENING THE FEDERAL
                         ACQUISITION WORKFORCE:
                       GOVERNMENT-WIDE LEADERSHIP
                            AND INITIATIVES

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    Aloha and good afternoon everyone, and especially to our 
witnesses.
    Today's hearing is a continuation of this Subcommittee's 
oversight of acquisition management across the Federal 
Government. In particular, this hearing is focused on the 
shortage of acquisition professionals to manage and oversee 
Federal contract spending.
    Federal spending on contracts has grown dramatically, 
exceeding $500 billion in fiscal year 2008. At the same time, 
the size of the Federal acquisition workforce has remained 
nearly constant, putting agency missions and taxpayer funds at 
risk. In addition, the Federal Government is facing a surge of 
expected retirements. The Federal Acquisition Institute reports 
that over half of the acquisition workforce will be eligible to 
retire in the next 8 years, further eroding an already 
understaffed Federal contracting workforce.
    Stories of contractor waste, fraud, and abuse, as well as 
ineffective government management of contracts continue to 
dominate the headlines. From massive, failed contracts in Iraq 
and Afghanistan to ongoing delays and problems with the 
Department of Homeland Security's (DHS) SBInet virtual fence 
and cameras, it is clear that the Federal Government must 
improve its contract management. Understaffed and without 
adequate training, the Federal acquisition workforce is often 
at the center of the storm of blame.
    Augmenting the ranks and improving the skills of the 
Federal acquisition workforce is in the best interest of 
everyone involved: The Federal acquisition workforce, 
contractors, the government, and taxpayers. This requires two 
areas of reform.
    First, we must improve government-wide leadership and 
coordination of the development of Federal acquisition 
professionals. The agencies represented here today are playing 
important roles in shaping the acquisition workforce; however, 
I am concerned that they are not providing the necessary 
leadership and coordination.
    I look forward to hearing from the first panel about the 
steps they are taking to provide their expertise to agencies 
throughout the government and to hold all agencies accountable 
for recruiting, training, and retaining highly-qualified 
acquisition professionals.
    In response to questions about leadership, we often hear 
that the Office of Federal Procurement Policy (OFPP) is the 
government-wide leader. However, if OFPP is to lead these 
important efforts, then its role must be enhanced. OFPP does 
not have the authority or the resources needed to effectively 
lead or enforce government-wide requirements. Currently, OFPP 
lacks an administrator, and has only 12 of the 16 authorized 
positions filled.
    To address the need for coordinated acquisition workforce 
efforts, Congress created a new executive level position at 
OFPP, the Associate Administrator for Acquisition Workforce 
Programs. Unfortunately, since its creation, this position has 
remained vacant. This is very troubling, and I hope to hear 
today what steps are being taken to fill this position.
    Second, beyond leadership and coordination, we will focus 
today on the government's ability to recruit, train, and retain 
qualified acquisition workforce professionals. In particular, 
the recruitment of qualified acquisition professionals to the 
government has been a consistent problem. Candidates complain 
of complex, lengthy hiring processes and poor communication. 
This leads many of the best candidates to accept offers from 
other employers.
    My bill, the Federal Hiring Process Improvement Act, S. 
736, which I introduced with Senator Voinovich, would help 
address this problem by streamlining the Federal recruitment 
and hiring process. I am pleased to note that the full 
Committee approved the bill last week.
    There are several new initiatives underway to improve the 
acquisition workforce. Some of these initiatives include new 
mentoring and intern programs, the use of flexible hiring 
authorities, increased college recruitment efforts, and 
improvements to the acquisition workforce career track. I look 
forward to hearing more about these efforts today.
    Despite these efforts, agencies may not have the tools they 
need to hire, train, and retain the acquisition workforce 
necessary to achieve their missions. Some agencies, including 
two of those on our second panel, spend upwards of 90 percent 
of their budget on contracts, underscoring the need for 
efficient contract management.
    The new Administration is facing many dramatic challenges, 
and the American people expect strong leadership from the 
Federal Government. We must act now to ensure that mission-
critical purchases are made and overseen by an effective 
acquisition workforce. We must bring in new talent, we must 
train and empower them, and we must preserve institutional 
knowledge within our acquisition community.
    On our first panel, it is my pleasure to welcome Jeffrey 
Zients, Deputy Director for Management, and the Nation's Chief 
Performance Officer, at the Office of Management and Budget 
(OMB), Nancy Kichak, Associate Director for the Human Resources 
Policy at the Office of Personnel Management (OPM), and David 
Drabkin, Acting Chief Acquisition Officer at General Services 
Administration (GSA).
    It is the custom of this Subcommittee to swear in all 
witnesses. So, may I ask you to please stand and raise your 
right hand?
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Zients. I do.
    Ms. Kichak. I do.
    Mr. Drabkin. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    Before we begin, I want to let you know that although your 
oral statement is limited to 5 minutes, your full, written 
statement will be included in the record.
    Mr. Zients, will you please proceed with your statement?

  TESTIMONY OF HON. JEFFREY D. ZIENTS,\1\ DEPUTY DIRECTOR FOR 
MANAGEMENT, AND THE NATION'S CHIEF PERFORMANCE OFFICER, OFFICE 
                    OF MANAGEMENT AND BUDGET

    Mr. Zients. Thank you, Chairman Akaka. I appreciate the 
opportunity to appear before you today to discuss the 
Administration's commitment to strengthening the Federal 
acquisition workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zients appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    As you mentioned, I was confirmed last month as Deputy 
Director for Management at OMB and as Chief Performance Officer 
of the Federal Government. It is my responsibility to help lead 
initiatives to improve the performance of government and 
achieve more value for the taxpayer. I believe that a sound 
acquisition system is critical to a high-performing government 
and that a strong, well-equipped acquisition workforce is the 
backbone of our acquisition system. The quality of their skills 
and judgment is closely tied to whether we achieve the best 
results from the more than $500 billion in contracting agencies 
undertake annually.
    In his March 4, 2009 memorandum on government contracting, 
the President called on agencies with guidance from OMB to 
eliminate waste and maximize the value achieved from their 
contracts. To implement this mandate, OMB recently directed 
agencies to develop aggressive savings plans to reduce the use 
of high-risk contracts and to take other steps to improve 
acquisition outcomes. Success will depend on the capability and 
capacity of the workforce to achieve these results.
    OMB's Office of Federal Procurement Policy (OFPP), and its 
partner agencies have taken a number of noteworthy actions to 
strengthen the acquisition workforce in civilian agencies. 
However, we believe a stronger, more strategic approach is 
required to achieve sustainable improvements in the capability 
and capacity of the workforce.
    This Administration's support for better contracting and 
for the acquisition workforce is focused on three, broad areas. 
First, strengthening acquisition workforce planning. Second, 
improving training and development. And third, increasing 
recruitment and retention.
    Let me talk about each of these briefly and the steps we 
are taking to support this critical workforce.
    First, acquisition workforce planning remains largely a 
tactical exercise, not a strategic process. Agencies focus on 
filling vacancies rather than developing longer-term plans that 
project needs and provide for further succession planning. We 
have not historically provided meaningful support for helping 
agencies align their workforce capabilities and capacity with 
their acquisition requirements. Congress recognized this 
shortcoming when it called for an acquisition workforce 
development strategic plan for civilian agencies.
    OFPP is leading this effort to provide a more strategic 
framework for developing the workforce. We are in the process 
of working with agencies to help them define their acquisition 
requirements, measure their workforce capacities, and determine 
their current and future needs.
    OFPP will complete this first phase of planning in October. 
This plan will identify recruitment and development needs, 
target training priorities, recommend changes to our 
certification programs, and address the planning steps that 
will be required to sustain these efforts. We also recognize 
that the needs of the workforce are not static. We are 
establishing a more robust, ongoing process for civilian 
agencies in OFPP to evaluate progress and continually reassess 
needs.
    Additionally, Senator, I agree with your opening comment, 
and I do look forward to working with the administrator of GSA, 
once confirmed, to quickly fill the associate administrator of 
OFPP for acquisition workforce programs. This individual will 
coordinate strategic workforce planning efforts across 
agencies.
    The second area of focus is improving training and 
development. Agencies now have better access to tools and 
information that allow them to target their training and 
development efforts.
    The 2008 competency survey on civilian agencies provides 
practical information about the proficiencies in the 
development areas of our workforce. OFPP's Federal Acquisition 
Certification Programs provide a framework for measuring and 
managing the achievement of these competencies. As agencies 
develop a better understanding of their workforce capabilities 
through their workforce planning, they will invest more in 
training and development. To ensure that these investment 
dollars are well spent, we will develop tools to better 
evaluate the impact our training efforts have on our ability to 
meet performance goals.
    Finally, we need to focus on increasing recruitment and 
retention.
    The civilian agencies acquisition workforce did grow by 6.5 
percent in 2008. This growth was facilitated by the joint 
efforts of the Federal Acquisition Intern Coalition and OPM. 
Agencies can now issue streamline job announcements and can use 
a central register of new applicants to fill entry-level 
positions more quickly. We will expand the use of this model to 
attract midlevel contracting professionals. We are also making 
progress in retaining more of our contracting professionals.
    In 2008, fewer people left the contracting community than 
in any of the previous 5 years.
    At the same time, we must include stronger retention 
strategies in our human capital planning. These strategies 
include building communities, expanding award and recognition 
programs, and facilitating the sharing of best practices.
    You have asked for my views on the Federal Hiring Process 
Improvement Act of 2009.
    First, I would like to thank the Subcommittee Members, and, 
in particular, recognize you, Senator Akaka and Senator 
Voinovich, for your longstanding commitment to the workforce. 
Improving the Federal hiring process is a principle strongly 
supported by the Administration, and we share your interest in 
making significant improvements.
    OPM is leading the government's hiring reform with strong 
support from OMB, and agencies are currently implementing 
initiatives that closely mirror many of those that you 
mentioned that are in the proposed act.
    While we support the intent of this legislation, we believe 
the flexibility needs to facilitate innovative and creative 
solutions can best be achieved through administrative means and 
focused leadership.
    In closing, we appreciate the Subcommittee's leadership on 
acquisition workforce issues, and welcome the opportunity to 
work with you as we take a more strategic approach and build on 
our progress to improve the capacity and capability of the 
acquisition workforce.
    I will look forward to answering any questions you have.
    Senator Akaka. Thank you very much, Mr. Zients.
    At this point, I would like to give our Ranking Member an 
opportunity to make his opening statement. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I, first of 
all, appreciate the fact that you are calling this meeting 
today.
    The Federal Government has spent more than $500 billion in 
fiscal year 2008 to procure goods and services, and that amount 
continues to rise and has more than doubled since fiscal year 
2002. So, we have had a lot more activity than we had in the 
past. But, despite the increase in procurement spending, 
adequate attention is not being given to the needs of those 
responsible for overseeing and managing the procurement 
process.
    As the Government Accountability Office noted in its 2009 
High-Risk List, ``The Federal acquisition workforce has been 
experiencing an increasing workload and complexity of 
responsibilities without adequate attention to its size, 
skills, knowledge, and succession planning.'' GAO's concerns 
are valid. Despite the doubling of procurement spending in this 
decade, the number of individuals managing that spending has 
not increased. Now, that may be working harder and smarter and 
doing more with less, but I doubt it.
    The Service Acquisition Reform Act Panel and GAO have both 
noted the need for proper training regarding the complex and 
frequently-changing Federal contracting environment. Further, 
according to the Federal Acquisition Institute, more than half 
of the Federal acquisition workforce will be eligible for 
retirement in 2018.
    These are all serious issues. When their job is not done 
well, their acquisition programs end up on the GAO High-Risk 
List, like the Department of Energy (doe) and National 
Aeronautics and Space Administration (NASA) Contract Management 
Programs, or their programs are areas of concern for their 
department's Inspectors General, like the Department of 
Homeland Security's acquisition management activities. Outside 
the Department of Defense (DOD), these three agencies spend the 
most Federal procurement dollars. So, it is alarming that there 
are so many concerns with the procurement activities of these 
agencies. Well, it is not ``alarming,'' it is just that there 
is concern about these programs.
    We need to determine the number of people that are needed 
to adequately manage and oversee the Federal procurement 
process. We have to ensure that those personnel are getting the 
training they need to get the job done, and we must ensure that 
agencies have the authorities to recruit and retain the best 
and brightest people.
    And, Mr. Zients, when you talked about building on past 
efforts in this need, and I think that sounds good.
    In 2004, I led efforts to provide NASA with new workforce 
authorities so NASA could hire the best and brightest for its 
missions. Among other things, those authorities included 
recruitment, relocation, retention bonuses, term appointments, 
scholarships, annual leave enhancements, and qualifications 
paid.
    According to a NASA report from April of this year, those 
authorities have been, and continue to be, important to 
building and sustaining a high-quality workforce to accomplish 
the agency's mission. Unfortunately, for some reason, it has 
not worked on procurement side. That is the area that is not 
working. They have done a good job elsewhere, but, for some 
reason, NASA has not made it in the area of procurement.
    I am curious as to whether similar authorities are needed 
across the Federal Government to recruit and retain for the 
acquisition workforce. That gets back to the issues that we 
talked about in my office, Mr. Zients. Some of these hiring 
flexibilities are available to certain agencies. Should you 
look at making more of them available across the board to other 
agencies?
    So, I want to thank you all for being here today, and I 
look forward to the testimony of Ms. Kichak and Mr. Drabkin.
    Senator Akaka. Thank you very much, Senator Voinovich. Ms. 
Kichak, will you please proceed with your testimony?

TESTIMONY OF NANCY K. KICHAK,\1\ ASSOCIATE DIRECTOR, STRATEGIC 
  HUMAN RESOURCES POLICY, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Kichak. Chairman Akaka and Senator Voinovich, I 
appreciate this opportunity to discuss with you the Office of 
Personnel Management's role in strengthening the Federal 
acquisition workforce. You also asked me to address OPM's views 
and recommendations regarding S. 736, the Federal Hiring 
Process Improvement Act of 2009.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kichak appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    OPM has been in the forefront of the effort to strengthen 
the Federal Government's acquisition capacity. We have been 
collaborating for some time with the Federal Acquisition 
Institute (FAI) and the Office of Federal Procurement Policy at 
the Office of Management and Budget on initiatives related to 
this effort.
    In 2007, OPM designated acquisition as a government-wide, 
mission-critical occupation. As a result, agencies have been 
required to continuously assess their acquisition workforce to 
assure hiring targets are met and any missing competencies are 
identified and addressed. OPM's human capital officers assist 
with the target setting process as they do for all mission-
critical occupations.
    We have been working closely with FAI to support the 
Federal agencies in developing a unified approach to recruit 
and hire contract specialists at the entry level. Our efforts 
included branding and marketing the acquisition profession 
through a special, interactive recruiting Web page. OPM helped 
design recruitment materials, staffed job fairs, and produced 
two ``Working for America'' commercials to showcase careers in 
the profession.
    OPM also worked with FAI to pilot the use of the central 
register of prescreened candidates for entry-level contract 
specialists. We streamlined the application process by over 75 
percent, wrote the job announcements in plain language, 
eliminated written essay-style questions, and simplified the 
assessment process.
    Today, there are approximately 8,000 candidates on the 
register for 36 locations. Since the pilot began, more than 800 
applicants have been referred to 10 agencies and components. To 
date, 67 selections have been made, and interest is increasing 
as knowledge of the register grows.
    In addition, there are statutory authorities that allow 
agencies to grant dual compensation waivers to acquisition 
personnel and to use direct hire when agencies are experiencing 
a severe shortage of qualified individuals or a critical hiring 
need.
    In addition to the steps we have already taken, OPM plans 
to establish central registers for contract specialists at the 
GS-9, 11, and 12 grade levels using the streamlined vacancy 
announcement template. If the pilot is successful, we will look 
for ways to fund this initiative in the future.
    You also asked me to address S. 736. I appreciate your and 
Senator Voinovich's leadership in focusing attention on the 
persistent need to improve our hiring processes in the Federal 
Government. Your sponsorship of this bill sends a clear message 
that changes must be made in the hiring process.
    OPM strongly supports the principles embodied in that S. 
736, making the Federal recruiting and hiring process as 
transparent, efficient, effective, and user-friendly as 
possible for job applicants and for Federal agencies.
    We are already moving ahead on many of the provisions in 
the bill. OPM has designed templates to streamline job 
announcements for more than 20 mission-critical and heavily-
recruited occupations. We will be directing agencies to use 
plain language in their job announcements and to remove the 
requirement for written essay-style questions about the 
applicant's knowledge, skills, and abilities. We developed a 
roadmap of the hiring process to make it easier for agencies to 
identify opportunities for improvement in their procedures. 
These initiatives will go a long way toward helping agencies 
reform their processes.
    We are concerned that mandating good agency practices in 
legislation may result in agencies losing flexibility and the 
ability to adapt to change. The Administration recently sent 
out memoranda to Federal agencies with specific requirements 
and timeframes for Federal hiring reform.
    In short, we believe we can achieve the intended results of 
S. 736 by administrative means, by continuing to exercise 
leadership, and through our collaboration with OMB and 
agencies.
    Thank you for the opportunity to participate in this 
discussion. I would be happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Kichak. And now we 
will hear from Mr. Drabkin. Your testimony, please.

  TESTIMONY OF DAVID A. DRABKIN,\1\ ACTING CHIEF ACQUISITION 
         OFFICER, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Drabkin. Thank you, Chairman Akaka and Ranking Member 
Voinovich. It is a pleasure to be back before the Subcommittee, 
and thank you for your invitation to testify before the 
Subcommittee this afternoon.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Drabkin appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    I know you had hoped to speak with our administrator. All 
of us at GSA hoped that you would be speaking to her, as well. 
Certainly, I did.
    Martha Johnson, as you know, from her confirmation hearing 
and her personal meetings with staff and members, is keenly 
interested in the acquisition workforce, and, if confirmed, 
will provide the leadership we need to focus on this issue.
    Please also allow me to acknowledge the presence at today's 
hearing of GSA's Chief Human Capital Officer (CHCO), Gail 
Lovelace. Gail testified before you last May.
    Ms. Lovelace and I, as the Chief Acquisition Officer (CAO), 
have formed an acquisition workforce steering group in GSA to 
ensure that we aggressively address acquisition workforce 
issues, recognizing the shared responsibility given by statute 
to both the CHCO and to the CAO.
    You have my approved statement for the record, and in it, I 
talk about both GSA and the government-wide acquisition 
workforce, so, I will take these few minutes to provide a 
prologue, if you will, to that statement concerning the 
government's acquisition workforce.
    In looking at issues concerning the government-wide 
acquisition workforce, one cannot do so in isolation any 
longer. You just cannot look at the people by themselves, 
although, in the final analysis, they are the most important 
part of our acquisition system and they prove it day in and day 
out.
    Our acquisition has evolved since the two seminal pieces of 
legislation, the Armed Services Procurement Act of 1947 and the 
Federal Property Administrative Services Act of 1949, governing 
government acquisition or enacted into law. Then the 
acquisition and the workforce that made it happen was 
stovepiped between and within agencies.
    Today, acquisition is a horizontal function of any 
successful enterprise, with centralized responsibility and 
decentralized authority. The Federal marketplace has been 
moving in that direction, although, statutory and regulatory 
challenges are thrown up occasionally to that movement.
    By the way, when I speak of the ``acquisition workforce,'' 
I am not talking just about our contracting specialists and 
contracting officers, I am talking about the larger definition 
of the workforce, which includes program managers, contracting 
officers' representatives, contracting officers' technical 
representatives, and a number of other functions that agencies 
have included in their respective definitions of the 
acquisition workforce, recognizing the importance of all the 
acquisition functions from the time requirements are developed 
until completion of contract performance and closeout.
    I am also very pleased that before this body we are not 
engaged in denigrating the acquisition workforce by referring 
to them as shoppers. In order to focus on the government's 
acquisition workforce, one must do so in the context of the 
guiding principles for our acquisition system, which is defined 
in the Federal Acquisition Regulation (FAR).
    It says in the FAR, and we changed it in 1993, to say that 
the guiding principles of the acquisition system are to satisfy 
the customer in terms of cost, quality, and timeliness of 
delivered products or services.
    For example, by maximizing use of commercial products and 
services, using contractors who have a track record of 
successful past performance or who demonstrate a current 
superior ability to perform and promoting competition, 
minimizing administrative operating costs, conducting business 
with integrity, fairness, and openness, and fulfilling public 
policy objectives. These guiding principles to be met by our 
system require that we have the right number of acquisition 
workforce members with the right competencies and skills 
supported by the right tools, policies, and processes to obtain 
the best value for the American citizen.
    The Federal Acquisition Institute, FAI, is the only 
organization that has a government-wide mission of addressing 
two of the key supporting structures to assist Federal agencies 
in living up to our stated guiding principles. Those two, key 
structures or having the right number of acquisition workforce 
members with the right competencies and skills. GSA has the 
pleasure of being the managing partner for FAI.
    In meeting these two objectives, FAI has evolved since its 
inception, and now is focusing on modeling itself on a 
corporate university structure where we relied on trained 
professionals in adult education to develop the training we 
need based upon our requirements, and then those same adult 
education specialists delivering that training. FAI also 
conducts research into acquisition-related issues, such as our 
acquisition workforce.
    This evolution is due in no small part to Congress' 
creation of the Acquisition Workforce Training Fund in the 
Services Acquisition Reform Act of 2003, which provides FAI 
with additional funds to perform its mission. I would be remiss 
if I did not point out that FAI could not be as successful 
today as it is without the support it gets from the partnership 
with the Defense Acquisition University (DAU). A special thanks 
to DOD, and, in particular, to the President of DAU, Frank 
Anderson.
    I would not want you to think, however, that this 
partnership is one way. After all, DAU resources are many times 
those of FAI, but FAI contributes significantly to this 
partnership, as well.
    As we continue our evolution in the acquisition workforce 
and the civilian agencies continue to evolve, there will be 
even more sharing between the two institutions, particularly 
now, as we have expanded the civilian agency definition to 
include program managers, a functional area DAU has a great 
deal of expertise in.
    Let me conclude by pointing out again that the acquisition 
workforce cannot be considered in a vacuum, and that one of the 
key issues in the success of the acquisition workforce is the 
tools it has to accomplish its mission. Sadly, today, those 
tools are inadequate, and, in some cases, nonexistent. It 
creates an environment where acquisition workforce members are 
successful in spite of the tools they possess, not because of 
them.
    Thank you for this opportunity. I will be glad to answer 
any questions you may have.
    Senator Akaka. Thank you very much, Mr. Drabkin.
    Mr. Zients, I am pleased to hear you commit to filling the 
position of Associate Administrator for Acquisition Workforce 
Programs. You have indicated that the Associate Administrator 
will support strategic workforce planning.
    How do you see that official interacting with the Federal 
Acquisition Institute, OPM, and other agencies in strengthening 
the Federal acquisition workforce?
    Mr. Zients. I am sorry, in terms of coordination and 
interaction?
    Senator Akaka. Yes.
    Mr. Zients. I do think it is critical that this group here 
and a larger group work very closely together. OFPP taking the 
lead on creating overall direction and guidance for acquisition 
and the workforce set of issues and the strategic workforce 
planning exercise, which I described, which we are in the 
middle of, I think is a very important lead role that OFPP is 
planning. At the same time, as Mr. Drabkin so elegantly 
captured, FAI is right at the center of this, helping to 
implement these policies and guidelines through training and 
education and setting the right certification standards.
    So, our partnership with GSA through FAI is critical, and 
then we all agree that recruitment is front and center here, 
and that we made good progress last year, and there is much 
more progress to be made and that OPM plays a central role 
there.
    So, I think there are clear lead responsibilities here. At 
the same time, I think it is critical that we are all well-
coordinated and that we also leverage the councils, the Chief 
Acquisition Officer Council and the CHCO, which is the Chief 
Human Capital Officer councils, both of which I have leadership 
roles on, to make sure that we are working closely with our 
leadership at the agency level to both inform our strategic 
direction and to ultimately implement these reforms.
    Senator Akaka. Thank you. We are looking for that type of 
senior-level engagement on these issues.
    Mr. Drabkin, as you know, there have been concerns over the 
quality of the training available to acquisition workforce. The 
Federal Acquisition Institute's mission, in part, is to provide 
for training.
    Do you believe that FAI has the leadership and resources it 
needs to effectively fulfill its mission?
    Mr. Drabkin. As you know, Mr. Chairman, I am a career civil 
servant, and I will not address whether we could use more 
because we can always use more to do our job better. I would 
point out to you that I am not sure the statement is true that 
the quality of training produced by FAI is not sufficient or up 
to par. In fact, under its former director, Karen Pica, who is 
now in the Office of Federal Procurement Policy, and under its 
current acting director and the new director who will come 
onboard next month, FAI has improved dramatically the quality 
of the coursework that it provides to the Federal acquisition 
workforce. In addition, through the partnership with DAU, we 
have been able to leverage coursework developed at DAU and the 
Department of Defense and modify it where necessary to meet our 
needs.
    I would tell you that probably the ultimate test of the 
quality or the value of the coursework we provide is the fact 
that the private sector buys the courses that our people take 
for their own people, and that probably is a testament to the 
fact that we are doing OK. That does not mean we cannot do 
better and we should not; it does not mean that we cannot be 
more responsive and faster in getting courses out. We can. And 
it does not mean we could not use more resources, but, at the 
moment, we are using what we have.
    Senator Akaka. I asked at the Subcommittee's hearing last 
year about what steps are being taken to reach out to young 
people and recruit them before they graduate from college and 
even high school.
    Are there efforts underway government-wide to increase 
students' interests in Federal acquisition positions? Ms. 
Kichak.
    Ms. Kichak. As I said, we did the Working for America 
commercials that highlighted the acquisition profession. We 
also have the centralized register for entry-level grades 5-7, 
which is what appeals to folks recently out of college, and 
that has 8,000 good candidates on it right now.
    So, I think what we are dealing with now is, if you look at 
who is being recruited in the Federal acquisition workforce, 
half of the recruitments are from mid-level folks. When 
agencies have a vacancy, they would like to get somebody with a 
lot of experience under their belt. Those folks are in limited 
supply, developing new people is very important. Getting these 
entry-level people in and getting them trained is essential, 
and the training is rigorous. Acquisition is a very complex 
career. It requires a broad knowledge that you cannot pick up 
easily. You need good training, and, so, it takes time.
    I think the applicants are out there. It is trying to get 
the applicants selected in positions and trained, that is not 
something that can happen overnight.
    Senator Akaka. Are there any comments from other witnesses?
    Mr. Zients. Senator, this is an area where I have had a lot 
of experience in the private sector because a lot of recruiting 
was straight off of campus, and I think it is an area where we 
have a great opportunity right now. It is one of the few or 
only benefits of this economy, and in my experience, it is all 
about effort. This is like a sales force, if you will. You need 
to make a lot of sales calls to close some clients, and I think 
we are putting forth a lot more effort than we did in the past, 
and I think we are seeing some early success.
    I also believe that the first year is critical in that 
people straight out of school need training, they need 
mentoring in that first year. So, we need to make sure that it 
is not only recruiting, but it is also on boarding and 
mentoring and that the young, straight-off-of-campus intern 
types have the opportunity to feel as if they are part of an 
organization where they can advance quickly on a merit basis.
    So, I think that there is a real window of opportunity 
right now, and I would be in favor of pushing as hard as we 
possibly can, building on the success that we have had today.
    Mr. Drabkin. And if I may add one more point, and that is I 
think your question, Senator, also goes to what can we do on 
the campuses itself so that the curricula at the campuses 
provide some advanced look into the government procurement 
system, and, in fact, FAI has entered into arrangements with 
both the National Contract Management Association and the 
National Institute of Government Purchasing. This was done 
while Karen Pica was our director. And both of those 
associations now have student chapters located on university 
campuses. Not a lot yet, but some.
    In addition, GSA has been working with the George 
Washington University School of Law, which, coincidently, is 
only a block-and-a-half from our main building, and we have 
also begun a program working with them, bringing students over 
while they are in school to expose them to our procurement 
process so that, hopefully, when they graduate, they will be 
interested in seeking a job in government procurement.
    I think that these kinds of programs, along with the 
college campus recruiting programs that you have just heard 
about, will improve our ability to get people interested in 
understanding the great opportunities. I mean, where do you go 
where you can spend $10 billion on a program and really have an 
impact on somebody else's life? You do not find that just 
anyplace; you find it working for us.
    Senator Akaka. Thank you very much. Senator Voinovich, your 
questions?
    Senator Voinovich. Yes, I have a series of questions, and I 
am going to ask all of you to comment.
    This is for Mr. Zients. OMB's Office of Federal Procurement 
Policy is responsible for providing direction for government-
wide procurement policy regulations, procedures, and also for 
promoting the economy, efficiency, and effectiveness 
acquisition processes. Additionally, OFPP supports the Chief 
Acquisition Officers Council, working groups, and competitive 
sourcing contracting with small business, human capital, 
electronic government, performance management, and contingency 
contracting.
    How can an OFPP staff of about 15 people effectively handle 
so many responsibilities?
    And this is for Mr. Zients and Mr. Drabkin.
    The Federal Acquisition Institute is located in GSA, but 
receives policy direction from the Office of Federal 
Procurement Policy.
    How do OFPP and GSA collaborate regarding the Federal 
Acquisition Institute, and do you believe the Federal 
Acquisition Institute is properly located at GSA?
    Mr. Drabkin, the Federal Acquisition Institute partners 
with the universities to provide training to the acquisition 
workforce. Are there similar partnerships with the universities 
and so forth?
    Ms. Kichak, Congress created the Chief Human Capital 
Officers Council in 2002 to advise and coordinate agencies' 
human resources. What role has CHCO played in addressing the 
acquisition workforce?
    Given the government's critical need to build its 
acquisition workforce, why has not CHCO worked more closely 
with the Chief Acquisition Officers' Council?
    And, Mr. Zients, as a midlevel office within OMB, do you 
believe the Office of Federal Procurement has the authority it 
needs to provide direction and oversight across the government 
regarding the acquisition processes?
    Now, I have to tell you something, there are a bunch of 
questions here. I will talk about this.
    NASA and the Department of Energy have been on the high-
risk list in this area since 1990, and the comment I have after 
I went over this with my staff, is that this seems to be 
unbelievable. I have seen, from my experience in management, 
where you can have a lot of agencies that are in difficult 
situations like this and if you are really lucky and if you 
have great interpersonal skills, you can get something done. I 
have also seen a screwed up type of operation where no matter 
who you have, the team just cannot get the job done.
    Based on your experiences, and particularly, Mr. Zients, 
from your outside point of view, does this make sense the way 
we are doing this? Is there a better way that we can manage the 
procurement process that perhaps may streamline the process and 
get these programs off the high-risk list? Because both DOE and 
NASA have been on the high-risk list since 1990, and that is a 
long time.
    Mr. Zients. Right.
    Senator Voinovich. How much longer will these programs be 
on the high-risk list with this current organization that we 
have?
    Mr. Zients. From an outside perspective, now 5 weeks into 
the job, I think that OFPP takes a lead role in guidance and 
direction, training and education, and partnership. I believe 
that to get it off the list the way you have described it, 
agency leadership has to decide this is a high priority. So, 
starting at the very top of the agency, the contracting 
matters, that the workforce matters, that performance on 
contracting and on acquisition at large matters. The horizontal 
perspective that Mr. Drabkin so eloquently described is the 
essential issue here, and to attempt to do it centrally through 
commanding control is not going to work. There is certainly a 
role for all of us to facilitate and help agency leadership, 
but at the very top of an agency, this has to be a priority.
    I think the President has set a stake in the ground that it 
is a priority for this Administration. When you start at the 
top of the organization and make it a priority to drive 
strategies and implement priorities accordingly, I think we 
will see real results. Our job is to help agency leadership do 
that. I think ultimate responsibility for performance has to be 
at the agency leadership level.
    Senator Voinovich. Well, do you think that the system 
impedes that from happening in terms of the agencies giving 
improving the procurement process the priority that it needs, 
that too much consultation is required?
    Mr. Zients. Clearly, it is hard to generalize. I am sure 
there are pockets of strong performance here, but I think if 
you look historically at what is the root cause here, I think 
that, in part because of the doubling that you both talked 
about upfront, this has changed a lot across 8 years. The 
number has doubled, so this has become a much bigger percentage 
of the average agency's budget, and I am not sure we have 
doubled down or tripled down on the attention we have given it 
at the agency senior leadership level.
    Senator Voinovich. Do you have the people in your shop 
necessary to do this? I just mentioned that you have 15 people 
at OFPP to handle a bunch of stuff.
    Mr. Zients. Well, I need to fill out the rest of my team. I 
need to find an administrator, which has been a top priority, 
and I believe I will have an administrator candidate for you to 
meet in the next couple of months. We also need to fill the 
position that we described upfront, the associate administrator 
for the workforce planning.
    With that group in place, I believe I have the team. If I 
do not have the team, across time, as priorities evolve and I 
get a better sense of the workload going forward, we will 
certainly make sure we staff adequately.
    Senator Voinovich. The goal always is to try and recruit, 
retain, and reward people. Even though the turnover rate has 
been lower, probably because of the economy, in terms of the 
rest of the categories of procurement personnel, from what I 
understand, there has been a fairly large turnover of people in 
this area.
    Do we bring them in, train them, and then, because of lack 
of pay-for-performance or other factors, they decide to tip 
their hat and go someplace else?
    Mr. Zients. My sense here is that maybe compensation is in 
play. I do not have data to suggest how much of the root cause 
is compensation. That said, this is a group that I think has 
been underappreciated, under-trained, under-recognized the last 
8 or more years. I believe that in order to attract and retain 
for the long-term, we are going to have to turn all of that 
around. This is going to have to be a workforce that feels like 
it is doing something very important, is being well-supported 
in doing it, and is getting the attention from the senior 
leadership at the agency level and has a seat at that table 
that is making the larger decisions and it has the horizontal 
visibility and orientation that was described before.
    Senator Voinovich. Mr. Drabkin, you said something at the 
end about the tools that you have.
    What other tools do you need to get the job done?
    Mr. Drabkin. In my testimony and in my written statement, I 
pointed out that we lacked the electronic system and 
acquisition kind of system that would facilitate the process 
beginning with the requirements development, and ending with 
contract closeout. A number of agencies have pieces of the 
tool. For example, they have contract writing systems, but that 
is not enough.
    As we meet the transparency challenge that the President 
has given us and that the Congress have given us, we are 
finding that a great deal of manual work has to be done because 
the information is not digitally available.
    For example, even the contracts that are written through 
our contract writing systems wind up being paper documents, 
which are managed as paper documents, and, so when you want to 
get information out of those files, somebody has to go and pull 
it.
    What we lack is a government-wide definition, which we have 
committed recently to provide to an acquisition architecture, 
and then we have lacked the investment dollars to make that 
system come to fruition.
    Senator Voinovich. I guess my dear friend, Senator Akaka, 
is probably going to hear this from me at a lot of hearings, 
but I am running out of time here, I am leaving here at the end 
of next year, and what bothers me is that we have hearings and 
hearings, and yet this problem has been around for a long 
period of time.
    And, Mr. Zients, you are from the private sector. It seems 
to me this is a major problem, and that what ought to be done 
is somebody ought to sit down and really spend the time to say 
this is a problem and here are the things that need to be done. 
Here is the critical path that we need to follow. Then you can 
have an opportunity to quarterback it and make sure that it 
happens, and, quite frankly, give Senator Akaka, who is going 
to be here longer than I am, an opportunity to have you come in 
and look at the list of the things that you think need to be 
done.
    And the alternative, perhaps, looking at this thing from a 
budgetary point of view. Do you have the money for the training 
or for the systems or whatever is needed, for you to tackle 
this in a systematic way? Honestly, you are the boss. I mean, 
you are part of the organization that helps set spending 
priorities.
    Mr. Drabkin. Yes.
    Senator Voinovich. It would be wonderful if you could 
really spend the time to come back to us and say, Senator Akaka 
and Senator Voinovich, here is our plan on how we are going to 
make a difference. We cannot do it overnight, but we have a 
plan. We are going to go forward with this plan, and here are 
some things that you can do in appropriations or someplace else 
to make these goals happen. Because I have to tell you, if you 
look at this area, we are losing billions of dollars each year.
    Mr. Drabkin. Right.
    Senator Voinovich. Billions of dollars all the time. Even 
the Defense Department. You keep reading about it. Billions and 
billions, but it does not seem like anybody is doing anything 
about this problem, right? It has been that way for how long? 
Probably as long as you have been here.
    Senator Akaka. Right.
    Senator Voinovich. So, I would really like to see something 
like that occur so that we have confidence that you have got a 
plan in mind and know what needs to be done. We cannot allow 
agencies to say, ``well, we are going to ignore what he just 
talked about because we just do not have the money to do it.'' 
You cannot get your job done over there, the job we have asked 
you to do, without the proper tools. Thank you, Senator Akaka.
    Senator Akaka. Thank you, Senator Voinovich.
    Senator Voinovich has just explained the huge problem that 
we face. We have tried to bring the agencies and departments 
together to work on of these problems because every agency 
makes acquisitions. We hope that together we can create a 
successful system.
    Senator Voinovich mentioned the Department of Defense, 
which is also on the high-risk list. Many of these problems 
exist in many places in our government. We are looking for 
answers. If we can come together, maybe we can make better 
headway.
    Mr. Drabkin, I want to go back to what you mentioned about 
reaching into the colleges. I believe Federal internship 
programs can be an excellent way to develop specialists needing 
extended training, and to provide entry-level opportunities 
with a career ladder to young workers.
    Please tell us more about the Federal Acquisition Intern 
Coalition (FAIC) and what role it plays in addressing 
acquisition workforce issues.
    Mr. Drabkin. The coalition is a grouping of the various 
Federal agencies that have internship programs, to coordinate 
those programs in large part to make sure, first, we are not 
poaching from each other.
    Actually, in response, Senator Voinovich, to something you 
said earlier, our problem is not in turnover, people leaving 
the Federal Government, actually, the turnover of our 
acquisition workforce people are not leaving in large numbers. 
We did not hire any in the 1990s as a result of our effort to 
reduce the size of government, and what we have now is this 
bathtub effect, where we have people we have been hiring for 
the last 8 or so years, nobody we hired from 1993, 1994, to 
about 2000, and then people who were in the government before 
then and who are getting ready to retire, but the coalition is 
looking at coordinating the efforts of all the agencies to make 
sure that we reach some standards among the agencies on how 
intern programs should be structured. We do not compete with 
each other, and, thus, we are competing with each other in the 
marketplace, it does not make sense for interns.
    I would also point out to you that at the end of the 
Clinton Administration, the Procurement Executive Council had 
developed a government-wide internship program which was led by 
the Interior Department (DOI), and that program actually 
started under the auspices of Ms. Lee, who I believe is on the 
next panel, who was then our OFPP administrator, and as we look 
at a model for perhaps how we should move from our current 
coalition into the next steps of maturing that internship 
process, I think that is a model we should follow. It was 
successful to the extent it was participated in, and with the 
leadership that Mr. Zients will provide us from OFPP and our 
new administrator, I am sure that it will take us to the next 
steps we need to go.
    In GSA, we have begun something similar, looking at 
combining all the various internships and we have principally 
two acquisition internship programs in GSA which, in some 
cases, causes us to compete against each other. It does not 
make any sense, and it does not serve the mission of the whole 
agency.
    And, as you look at acquisition as a horizontal function of 
government, when you really look at what acquisition people do 
in the main, it is the same whether you are at DHS, DOI, or 
Environmental Protection Agency (EPA). It is difficult when you 
work my colleagues, because none of us particularly want to be 
a mandatory part of a whole. We all want to kind of control our 
own destiny, and the coalition is the first steps in moving us, 
I think, evolving us to the place we should be, and, as I said 
to Mr. Zients and our new administrator of OFPP, I think what 
we need to provide the leadership that has not been there for 8 
years, to move us into the next step.
    Senator Akaka. Mr. Zients, as you have testified, the range 
of positions that manage Federal acquisitions is much broader 
than traditional, Federal contracting positions.
    A bill that I cosponsored during the last Congress, S. 680, 
the Accountability in Government Contracting Act, would have 
expanded the definition of the acquisition workforce.
    Outside of new legislation, are steps being taken to ensure 
that the focus of efforts to strengthen the acquisition 
workforce is broad enough?
    Mr. Zients. Yes, I think it is moving in that direction. I 
think, again, you will see variability by agency.
    As an example, this year, the FAI competency study looked 
at the technical representatives for the first time, and 
actually a lot of what came out of the competency study was 
that we need to help better integrate program managers into 
early stages of contract writing and ensure that the 
Contracting Officer's Technical Representatives (COTRs) on the 
backend are deeply involved in evaluating and managing the 
contracts.
    So, the whole movement right now is to this horizontal, 
broad definition. I do not think we are there across the 
civilian agencies, but I think we are making progress, and I 
think we need to learn from those who have made the most 
progress and ensure that we take those best practices and 
spread them across the other agencies.
    Senator Akaka. Ms. Kichak, OPM reports that it has set 
targets and closed competency gaps for the acquisition 
workforce at 15 agencies that participate in the Chief Human 
Capital Officers Council. I understand you plan to do this for 
all CHCO agencies by October 1.
    Please provide more information about these accomplishments 
and how OPM evaluated competency gaps at the CHCO agencies.
    Ms. Kichak. Those are self reports that the agencies give 
to us on their competency gaps, and they set targets for the 
gaps that need to be closed, and then they report to us a year 
later on what they are. Every agency is required to make that 
report, and we summarize those results.
    I do not have the specific figures you do. What I saw by 
looking at the last report was that gaps were closed for 75 
percent of the competencies, but that does not tell you what 
the 25 percent were and how important those are, but we do that 
for every CHCO agency, not just the ones that you cite. So, we 
do that review and can make that available to you.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. I have no more questions.
    Senator Akaka. There are no more questions.
    I want to thank this panel very much. We may have questions 
for the record that we will submit for your responses. I want 
to thank you very much for providing such useful information as 
we try to improve the acquisition system of our Federal 
Government.
    So, again, thank you very much for being here, and I look 
forward to seeing you again.
    Mr. Drabkin. Thank you, Senator.
    Senator Akaka. Now, I would like to welcome the witnesses 
on our second panel, Elaine Duke, Undersecretary for Management 
at the Department of Homeland Security; Bill McNally, Assistant 
Administrator for Procurement at the National Aeronautics and 
Space Administration; John Bashista, Deputy Director of the 
Office of Procurement and Assistance Management at the 
Department of Energy; and Deidre Lee, who currently is the 
Executive Vice President for Federal Affairs and Operations at 
the Professional Services Council and is a former Administrator 
of the Office of Federal Procurement Policy, as well as a 
former acquisition leader at several agencies.
    As you know, it is a custom of this Subcommittee to swear 
in all witnesses. I ask all of you to stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Duke. I do.
    Mr. McNally. I do.
    Mr. Bashista. I do.
    Ms. Lee. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we begin, I wanted to let you know that although 
your oral statement is limited to 5 minutes, your full written 
statement will be included in the record.
    Ms. Duke, before you proceed with your statement, I wanted 
to take this opportunity to thank you for your service, and, in 
particular, agreeing to continue your work as undersecretary 
through DHS's first transition. This likely will be your last 
time appearing before us in your current role, and I want to 
commend you on your leadership in this post and on your 
stewardship. Your assistance has been very helpful to this 
Subcommittee's oversight role, and we appreciate that. With 
that, I will ask you to please proceed with your statement.

TESTIMONY OF ELAINE C. DUKE,\1\ UNDERSECRETARY FOR MANAGEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Mr. Chairman and Ranking Member Voinovich, I do 
not think I would have ever thought I would be sorry about this 
being my last hearing, but this Subcommittee's been wonderful 
to work with, and, so, I do feel a little sad about that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duke appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    I am thrilled that this last hearing is on acquisition 
workforce because that is a passion of mine, and I appreciate 
you taking the time to have a hearing on this very important 
subject. And, as we discuss DHS's acquisition workforce, I 
would like to look at three timeframes: Where we were, where we 
are, and where we are going.
    Often times, the DHS Inspector General (IG), Government 
Accountability Office (GAO), and others continue to point out 
the need for improvement in acquisition and acquisition 
workforce in DHS. I appreciate the oversight, and they give us 
a lot of good ideas, and I think it is important to look at 
what we have done and achievements we have made in DHS on our 
ambitious path towards improving DHS acquisition and its 
workforce. I am proud of the progress we have made so far.
    Some of the initiatives we have put in place is expanding 
DHS's Chief Procurement Office from strictly a procurement 
office to an acquisition office. This is not just a matter of 
semantics; it recognizes that the root cause of DHS's 
challenges in acquisition is not in the contract itself. The 
root cause is often in the initial requirements process. This 
initiative adds program managers, test and evaluation experts, 
cost estimators, logisticians, and system engineers to the DHS 
acquisition workforce.
    We have also developed a certification program for 
contracting officers, program managers, and contracting 
officers' technical representatives to ensure they have the 
experience, training, and education to have the necessary 
skills. We have designed and implemented an acquisition 
professional career program, our intern program, to bring 
entry-level contract personnel into the Department.
    The program began in 2009, and, by the end of this fiscal 
year, we will have 100 contracting professionals, about 10 of 
which are in the audience today, into the Department.
    We established the Office of Procurement Operations to 
manage the contracting span at DHS Headquarters, which grew 
from a few hundred million dollars in the start of the 
Department to nearly $5 billion last fiscal year.
    We have designed and implemented a test and evaluation 
program for the Department's major acquisition programs. This 
is key for some of the programs like SBInet and others that 
this Subcommittee has provided oversight for. It provides a 
formal test and evaluation program, and, more importantly, an 
independent review of operational testing and evaluation of our 
major acquisition programs.
    In our Certification Program for program managers, we have 
increased the percentage of properly-certified program managers 
running our 42 largest level-one programs, which are over $1 
billion each, from about 20 percent to more than 80 percent.
    We are implementing a comprehensive revision of the 
Acquisition Review Program. This is to recognize that, while we 
initially reformed our review program after the Department of 
Defense, our spending is not like DOD's. We do not buy a lot of 
development hardware. So, we have modified it to ensure we 
bring all of acquisition programs to the senior leadership so 
they can make risk-based decisions on moving our acquisition 
programs forward.
    We have realized a net increase of more than 300 
contracting personnel over the last 3 years, and more than 500 
since the Department's inception, though intense efforts to 
recruit and retain staff continue.
    We have developed an electronic system to monitor this cost 
schedule and performance of our major acquisition programs, 
which is key to timely and accurate decisionmaking and risk 
management by our leadership.
    It is important to know that even though we have developed 
and implemented these initiatives, we have a long way to go. 
Some of our near-term next steps include adding another 100 
interns to our intern program, doubling it to 200 by the end of 
fiscal year 2010. We also have a commitment to have a certified 
program manager running each of our level one programs by the 
end of this calendar year.
    We are finalizing our governance management directive, 
Directive 102.01, which has been in draft for way too long, by 
the end of this year, and we are conducting formal acquisition 
review boards on 100 percent of our Recovery Act money, our 
stimulus spending by the end of this fiscal year. And, also, we 
are going to add certification programs for logisticians, test, 
and evaluation experts, and cost estimators in fiscal year 
2010.
    Mr. Chairman and Ranking Member, thank you for the 
opportunity to be here before you, and I look forward to your 
questions.
    Senator Akaka. Thank you very much, Ms. Duke. Mr. McNally, 
will you please proceed with your statement?

TESTIMONY OF WILLIAM P. MCNALLY,\1\ ASSISTANT ADMINISTRATOR FOR 
  PROCUREMENT, AND DEPUTY CHIEF ACQUISTION OFFICER, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. McNally. Thank you for the opportunity to testify 
before the Subcommittee regarding NASA's effort to staff, 
train, and retain its acquisition workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McNally appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    NASA is unlike most civilian agencies. Our programs and 
projects involving space exploration systems, science and 
aeronautics research, and space operations have one thing in 
common: They are high-risk. This is because NASA is pushing new 
boundaries in technology and science. There are many challenges 
involved in managing and performing high-risk programs, 
projects, and missions. They are full of uncertainty and 
challenges, and they involved high-risk acquisitions.
    To meet these challenges, NASA needs capable people. 
Getting and keeping high-quality acquisition personnel is also 
a challenge. That is why we are here today. Recruiting, 
developing, and retaining qualified and capable acquisition 
personnel is critical for mission success.
    The first step to a strong workforce is bringing the right 
people onboard. NASA has had a focus on recruiting entry and 
mid-level personnel through its cooperative education, and 
intern programs. NASA's Contracting InterN Program has been 
very successful in bringing entry-level procurement personnel 
onboard. NASA also has numerous program management hiring 
programs to bring in the best and brightest for research, 
development, engineering, and science-related positions. 
Depending on their jobs, many of these personnel may fill 
acquisition roles at NASA.
    Once people are onboard, the next key step is training. 
Acquisition personnel at NASA have access to comprehensive 
training programs. They participate in all of the core 
acquisition training that OMB requires for civilian agency 
acquisition personnel.
    In 1995, NASA established a mandatory training program for 
the procurement workforce that was modeled on the Department of 
Defense's program. NASA had an easy transition when the new, 
rigorous, government-wide, Federal acquisition and contracting 
program started several years ago because its training was 
already consistent with the new program.
    For the program and project managers, NASA developed the 
Academy of Program Project and Engineering Leadership that 
recently implemented the Program Manager Certification Process. 
This process has been endorsed by OMB and has been called a 
model example for Federal agencies.
    NASA also focused on specialized and just-in-time training 
in areas such as earned value management, source selection, and 
cost-price analysis to ensure our workforce has the capability 
to execute and manage our high-risk acquisitions.
    NASA uses programs to develop leaders. These include the 
Senior Executive Service Candidate Development Program, 
Midlevel Leadership Program, and the NASA Foundations of 
Influence, Relationships, Success, and Teamwork Program.
    Keeping employees is the most important part of a strong 
workforce. NASA has retention strategies to maintain its 
acquisition workforce. They include new employee orientation, 
mentoring programs, awards, working family programs, and 
education assistance.
    Part of the reason we are here today is to talk about the 
Federal Hiring Process Improvement Act. I am pleased to say 
that NASA not only concurs with the intent of the Act, we are 
already doing some of what the bill requires.
    For example, the proposed legislation requires a strategic 
workforce plan as part of the agency performance plan. NASA's 
Office of Human Capital Management has had an entire division 
focused on providing planning support for the agency.
    In closing, NASA will continue to pursue its mission that 
pushed the state-of-the-art of technology, while also 
maintaining American leadership in space, earth, and aeronautic 
sciences. We have programs and initiatives in place for our 
current and future acquisition personnel, so that NASA will 
have a qualified and capable workforce to meet the challenges 
of NASA's new missions.
    Again, thank you for the opportunity to appear before the 
Subcommittee today, and I would be pleased to respond to any 
questions you may have.
    Senator Akaka. Thank you very much, Mr. McNally.
    And now, Mr. Bashista, please proceed with your testimony.

 TESTIMONY OF JOHN R. BASHISTA,\1\ DEPUTY DIRECTOR, OFFICE OF 
   PROCUREMENT AND ASSISTANCE MANAGEMENT, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Bashista. Good afternoon, Mr. Chairman and Ranking 
Member Voinovich. Thank you for the opportunity to come before 
you today to address the Department of Energy's (DOE) efforts 
to build, strengthen, and maintain a high-quality acquisition 
workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bashista appears in the Appendix 
on page 81.
---------------------------------------------------------------------------
    As the largest civilian contracting agency in the Federal 
Government in terms of annual contract obligations, DOE relies 
heavily on a stable, experienced acquisition workforce to 
effectively support its core missions. To this end, the 
Department has invested heavily in strategies to attract, 
train, and retain the best and brightest talent into its 
acquisition workforce.
    The downsizing of the acquisition workforce in the 1990s 
throughout the Federal Government was followed by a dramatic 
increase in workload. Between 1998 and 2006, DOE's contract 
spending increased by 71 percent, while the size of our 
acquisition workforce remained relatively constant.
    To address this challenge, the Department has undertaken a 
number of initiatives to better leverage existing acquisition 
resources by creating efficiencies through the use of 
technology and by re-engineering and standardizing internal 
processes.
    Although these initiatives are important, my comments today 
will focus on our efforts to increase and develop our 
acquisition workforce. These efforts are largely focused on 
attracting new entrants into the acquisition profession. 
Fundamental to this approach is aligning our recruiting efforts 
with the career expectations of the next generation of 
acquisition professionals.
    Over the past several years, our recruiting efforts have 
emphasized active participation in broader Federal initiatives, 
such as OPM-sponsored hiring fairs, the Federal Career Intern 
Program, OPM's Central Register Pilot Program for entry-level 
contract specialists, and the Department of Veterans' Affairs 
Coming Home to Work Program.
    The Office of Procurement is also working with the 
Department's Office of Human Capital to obtain direct hire 
authority, which will enhance our ability to recruit and hire 
qualified staff more quickly. And last year we gained OPM 
approval to re-employ annuitants in acquisition positions.
    For the past 2 years, DOE has conducted an annual, 
enterprise-wide competency assessment of the acquisition 
workforce to identify gaps and improve both training and human 
capital planning. The assessment involves the active 
participation of DOE's acquisition managers in identifying and 
validating competencies, and its results are used for 
organizational planning.
    Information from the assessments helps us to identify 
priorities for department-wide workforce development efforts 
and helps frame our annual acquisition workforce training 
priorities, which are managed under our Acquisition Career 
Management Program (ACMP).
    The ACMP provides a formal structured approach to career 
development for DOE's acquisition workforce. The program is 
designed to increase the proficiency of the acquisition 
workforce through competency-based training and provides a 
roadmap to guide acquisition employees through the training, 
education, and experience needed to advance in the profession.
    A key feature of the program is the establishment of the 
Department's Site Acquisition Career Management Council in 
2008. The council is chaired by DOE's acquisition career 
manager, and its membership is comprised of representatives 
from each DOE field office. The council's responsibilities 
include maintaining the proficiency and currency of the 
program's policies and procedures, education and training 
sources, and course requirements and curriculum.
    Another recent improvement has been centralizing the 
management of training resources within DOE's Office of 
Procurement to ensure complex-wide training needs are 
addressed.
    As a result, more than 90 percent of DOE's contracting 
workforce is currently certified under the Federal Acquisition 
Certification in Contracting Program, compared to 60 percent as 
of October 2007.
    In addition, the Department has made significant progress 
towards closing its resource and skill gaps. Since 2006, the 
DOE contracting workforce has increased by 30 percent. In 
addition, since the beginning of fiscal year 2008, more than 
500 acquisition and program personnel have received training 
that targets both certification requirements and identified 
skill gaps across the spectrum of acquisition skills.
    We are also leveraging existing authorities to retain 
critical experience and expertise. These include tuition 
reimbursement assistance, recruitment and retention incentives, 
employee reward and recognition programs, alternative work 
schedules and telecommuting, and employee development programs.
    Improving the Federal hiring process is a critical element 
to achieving a strong acquisition workforce, and we appreciate 
the Subcommittee's leadership in focusing attention on the need 
to improve the hiring process in the Federal Government. In 
fact, the Department is currently working in cooperation with 
OPM and other agencies to improve the hiring process in all the 
areas addressed in S. 736. We believe that these changes will 
significantly improve our ability to recruit and hire 
acquisition employees.
    In closing, I would reiterate and assure this Subcommittee 
that the Department is committed to ensuring taxpayer dollars 
are well-spent and managed through the Department's efforts to 
develop and sustain a robust, highly-skilled, and professional 
acquisition workforce.
    This concludes my formal remarks, and I would be happy to 
respond to any questions you may have.
    Senator Akaka. Thank you very much, Mr. Bashista. Now, we 
will hear the testimony of Deidre Lee.

  TESTIMONY OF DEIDRE A. LEE,\1\ EXECUTIVE VICE PRESIDENT OF 
 FEDERAL AFFAIRS AND OPERATIONS, PROFESSIONAL SERVICES COUNCIL

    Ms. Lee. Good afternoon. Chairman Akaka and Ranking Member 
Voinovich, thank you for including me in the hearing today to 
talk about the acquisition workforce and the Federal Hiring 
Process Improvement Act of 2009.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lee with attachments appears in 
the Appendix on page 87.
---------------------------------------------------------------------------
    I appear before you today on behalf of the Professional 
Services Council (PSC), which is a new role for me. The 
Professional Services Council is the leading national trade 
association of the government Professional and Technical 
Services Industry. PSC has more than 330 members. Companies 
represent small, medium, and large businesses that provide 
Federal agencies with services of all kinds. Together, the 
associations' members employ hundreds of thousands of people in 
all 50 States.
    PSC has been a longtime advocate for a highly-skilled, 
well-trained, and resourced acquisition workforce; and supports 
efforts to enhance the training and professional development of 
the Federal workforce, particularly in acquisition. PSC also 
advocates for appropriate and balanced approaches to the 
workforce challenges, including recognition of the 
contributions made by each segment of the multi-sector 
workforce to accomplish the government's many critical 
positions.
    Today, I would like to summarize my statement. My written 
statement does include some points about the improvements that 
have been made to date, but although progress has been made, 
much remains to be done; rebuilding an experienced, skilled, 
Federal acquisition workforce and rebalancing the multi-sector 
workforce will take years of dedicated effort.
    We do not need more reviews, competency studies, further 
discussion of who should or should not be in the workforce, or 
arbitrary new hiring goals. We need action now. I follow with 
eight recommended action points.
    First, plan for and manage a multi-sector workforce. 
Agencies must strengthen performance and demonstrate results. 
Strategically-established, well-defined approaches for hiring 
the right people for critical agency functions and awarding and 
managing the right contracts and grants for partner performance 
are critical to mission success. We must demand rigor in 
planning the multi-sector workforce.
    OFPP should issue clear, executable guidance on the phrase 
``inherently governmental,'' as required by the President's 
March 4 memo. Agencies should then develop strategic plans that 
reflect a balanced workforce, focusing on hiring for 
``inherently governmental'' and critical core positions and 
addressing full cost comparisons of other positions before 
making conversions.
    Second, as David Drabkin so aptly discussed, we need to 
clearly define the Federal acquisition workforce; a successful 
program requires a coordinated effort comprised of many skills.
    OFPP should redefine the Federal acquisition workforce to 
include the broad range of skills needed for the lifecycle of a 
successful acquisition. An OFPP letter could be issued 
immediately with appropriate regulatory and/or legislative 
actions to follow.
    Third, we need to fund the total acquisition workforce. If 
we recognize that full definition, we know that agencies need a 
comprehensive, cogent, and well-enforced development and 
training regime. Congress and the Administration must provide 
stable, recurring resources for existing and new workforce 
development, training, and retention, and agencies should work 
with the Congress to make sure we have the proper funding in 
2010 and beyond.
    Fourth, put leadership in place. Critical leadership 
positions, as we have discussed here, remain vacant. We need an 
OFPP administrator and a GSA administrator now. Quickly hire 
and fill other key positions with experienced, qualified 
acquisition professionals.
    Further, I think the role of the OFPP administrator should 
be expanded to encompass all acquisition functions, rather than 
being just limited to procurement or contracting, and this 
change would require a change to the OFPP Act.
    Sixth, we need to streamline the hiring process now, almost 
overnight, and S. 736 does contain some key areas that need to 
be addressed there.
    As David Drabkin mentioned, we need to provide cutting-edge 
tools. There is an integrated acquisition environment that is 
well on the way, but funding by pass-the-hat makes it very 
difficult to maintain the tools that are needed.
    And, finally, we need to ensure we have an engaged, 
meaningful oversight. Accountability must begin with a system 
that enables performance and rewards excellence.
    Today's Federal acquisition workforce is overworked, under-
trained, under-resourced, and under-supported. The Federal 
acquisition environment has become extremely risk averse and 
leaves little room for honest mistakes. Performing at the 
highest levels, which is what we ask of the Federal workforce, 
is impossible without innovation and responsible risk-taking. 
The understandable zeal for accountability has spawned a ``got 
you'' environment where there has been a palpable effect on 
Federal employees in general and government acquisition 
professionals in particular.
    A contracting officer who does not uphold every single 
audit recommendation should not find the remedy for exercising 
his or her best judgment to be a referral to the Inspector 
General for Personnel Investigation. In the vein of 
independence, some elements of the defense oversight community 
have largely withdrawn from collaborative problem-solving, 
early reporting, open discussion, and resolution of negotiable 
items. Independence does not equal isolation. We must 
reestablish oversight as an integral part of acquisition team 
and a partner in the government's continuous improvement, 
provide acquisition training to the oversight, and particularly 
the audit community, and emphasize that the community can and 
should be a key partner in the acquisition community, which can 
be done without any compromise of their independence.
    Both the Federal workforce and the contractors should 
support serious innovation in both good times and bad, and 
sending that message could do more to strengthen the Federal 
acquisition workforce than almost anything else. I look forward 
to your questions.
    Senator Akaka. Thank you very much, Ms. Lee.
    I want to start this round with a question for all of our 
agency witnesses. There often appears to be a disconnect 
between the acquisition and human capital functions within 
agencies. This results in acquisition workforce issues largely 
falling to acquisition staff, without the benefit of human 
capital expertise.
    As you work to strengthen the acquisition workforce, how is 
your agency promoting communication and collaboration between 
the acquisition and human capital parts of your agency? Ms. 
Duke.
    Ms. Duke. Chairman Akaka, within Department of Homeland 
Security, the main way we are addressing that is through the 
undersecretary of management position, which, as you know, by 
statute, functions as a chief management officer. So, each of 
the business lines, personnel, human capital, procurement, 
finance and budget, security, and administration are managed 
under. So, the undersecretary for management with the career 
deputy is that driving integration function.
    And, initially, in our early stages, we did function much 
more in stovepipes, and now, with our maturity, one of the 
focuses of management and each of the chief's performance goals 
this year is to provide integrated management solutions, which 
drives to the point you are talking about there, supporting 
each other to meet our mission more effectively, using the 
collaborative business lines together.
    Senator Akaka. Mr. McNally.
    Mr. McNally. At NASA, the Human Capital Officer and my 
office are assigned within the same organization. So we are 
aligned together organizationally, and we meet on a regular 
basis to discuss my needs within the acquisition arena in not 
only procurement, but the project program managers. But, also, 
we talk about leadership development, entry-level personnel, 
and mid-level, and recruiting retention goals.
    Also, when the Office of Human Capital set up a workgroup 
within NASA, we are part of that workgroup. Senior leadership 
within my organization are part of that. So, we are very much 
in line with the Human Resource Office in that arena.
    Senator Akaka. Mr. Bashista.
    Mr. Bashista. Mr. Chairman, unlike DHS and NASA, we are not 
organizationally aligned with our Human Capital Office, but, 
particularly in the last year or so, we have seen significant 
improvements.
    As you are aware, the National Academy of Public 
Administration (NAPA) has been studying the Department's 
financial management function, human capital function, and 
procurement function, and separate, but related, we have been 
attacking some of the issues that have been identified by NAPA 
in advance of the report just recently being issued, and I 
would have to say that the integration, particularly over the 
last year, has been exceptional.
    We have on board 83 new 1102s series across the Department 
just this fiscal year alone, the responsiveness in relation to 
the urgency to bring folks onboard as a result of the Recovery 
Act. They have significantly helped to streamline the 
recruitment and hiring process, particularly through the 
internship programs.
    So, I would have to say, currently, it is very effective.
    Senator Akaka. Mr. McNally, your testimony indicates that 
NASA is already doing much of what our legislation to 
streamline the Federal hiring process would do. I am pleased to 
hear this.
    Do you feel these hiring reforms have been successful for 
NASA and should be implemented at other Federal agencies?
    Mr. McNally. Well, we are still starting the process with 
these initiatives, so, we are not totally ready to say that 
they are fully successful. But, initial output looks very 
promising, particularly in the areas of the advertisements to 
make sure it is understandable so that we are recruiting 
personnel that are not already within the government, though, 
they are welcome, but we are looking for personnel outside the 
government, recent college graduates or personnel who are just 
graduating from colleges.
    The other thing that we are looking to do is to have 
communications with those applicants. The one thing that is 
very frustrating for a person who is applying for a job is 
never to hear what is the status of it, so, that is a key area 
that we are working on at NASA.
    So we look forward to continual movement to improve the 
hiring process because that is a key part of making sure we 
have the right acquisition workforce.
    Senator Akaka. Ms. Lee, the Professional Services Council's 
most recent procurement policy survey found that human capital 
was the most mentioned problem by acquisition professionals. In 
particular, respondents highlighted the size and quality of the 
workforce.
    What do you believe the Federal Government should do in the 
short-term to fix this problem, and who do you think could lead 
that effort?
    Ms. Lee. Sir, as we heard from the first panel, the process 
right now is cumbersome and time-consuming. We heard about a 
process that resulted in 67 offers being made, but I do not 
know how many of those people are actually onboard now. I would 
recommend that we step way outside the box.
    When I was at DOD, one of the things that the people in 
logistics did is went and studied NASCAR to say how do you 
quickly support logistics at a quick turn? I would recommend in 
hiring that we go study the coaches. If you have ever watched, 
there are coaches who go and recruit high-quality athletes, 
young men and women at about that age and communicate with them 
in a regular and continuous basis, communicate with their 
family, show them the value of joining the team, and have a 
full recommendation on how to get these people onboard and get 
them enthused.
    We should go study folks like that, not necessarily the 
process that we have always used. We have to step outside the 
box.
    Senator Akaka. At this Subcommittee's last hearing on the 
acquisition workforce, we heard testimony about the importance 
of sharing best practices government-wide.
    I would like to hear about how your agency is sharing best 
practices for the Federal acquisition workforce and what best 
practices your agencies have implemented successfully. Ms. 
Duke.
    Ms. Duke. Within DHS, we share best practices a couple of 
principle ways. One is through membership on the Chief 
Acquisition Officer Council, which is chaired by OFPP and has 
acquisition workforce as one of its priorities. Additionally, 
we have a member on the board, a Federal Acquisition Institute, 
to help make sure that organization develops to meet our 
training needs.
    I think in terms of the best practices that we have 
implemented, I think that what we have done is, one, our intern 
program, because I do think in terms of having mid-career 
recruiting, we have to create the workforce. When you look at 
the retirement numbers, it is not going to happen just from 
hiring from other lateral resources. So, I think the intern 
program is definitely a best practice.
    The other thing I think that is a best practice is 
identifying the workforce and treating them as professionals.
    The 1102 series is one of the handful of Federal series 
that has a positive education requirement, and that is a good 
first step, but I think treating our acquisition workforce as 
professionals, not as administrative support, is key to making 
them feel a valuable part of the mission.
    And, so, I think our best practice is in terms of 
identifying them, treating them as professionals through the 
way we recruit, the way we train, and continuing education 
requirements. We have continuing education requirements for all 
our professionals, just like an attorney would have. It really 
is going to help toward them feeling like they are continued, 
valued partners, and I think that is a key to retention. I do 
not think pure money is a key to retention. I think it is being 
a valued member of meeting the mission is what keeps people at 
DHS.
    Senator Akaka. Any other witnesses--Mr. McNally.
    Mr. McNally. I would like to address interagency working 
groups. NASA is a member of one recently started this past year 
on award fee contracts, which I spoke about on Monday to 
another subcommittee where I was testifying, and that is a key 
area where 95 percent of award fee contracts are with five 
agencies. So, it is critical that those five agencies get 
together and share its practices on incentivizing contractors. 
We should not just do it alone.
    The other area I would like to address that deals with 
acquisition personnel is program project managers.
    I was asked and I am now chairing a working group that is 
sponsored by OMB on program project management, where we share 
best practices on setting up policy on program project 
management, how do you do oversight of your program projects, 
and training issues, like earned value management and 
certification of earned value management systems.
    So I think one of the things we need more of is interagency 
working groups and sharing of knowledge across the Federal 
Government.
    Senator Akaka. Mr. Bashista.
    Mr. Bashista. Mr. Chairman, at the Department, we, too, 
participate in the various fora, the Chief Acquisition 
Officer's Council, the Chief Human Capital Officer's Councils, 
the Federal Acquisition Regulatory, and Defense Regulatory 
Councils, and there is much benchmarking and information 
sharing that we have established networks to do that on 
acquisition-related issues, and, as it pertains to the 
acquisition workforce, primarily through our relationship with 
our Chief Human Capital Officer with the CHCO boards. Because 
of our close alignment in mission as far as risk and 
complexity, we have not been shy about benchmarking extensively 
agencies such as NASA, and, so, some of our benchmarking 
approaches have been less formal, but, nonetheless, we are 
engaged heavily in doing that.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Ms. Duke, I want to join Senator Akaka 
in thanking you for a great job that you have done in the new 
undersecretary for management position, and I think that all of 
us are impressed with your testimony today and the progress 
that has been made.
    I just wish that my legislation, S. 872, that would provide 
the person in your position a 5-year term had been in place 
because I really believe that if you had that 5-year term that 
your work and the work of the people that you work with would 
have taken DHS off the high-risk list.
    I get the impression that you have had the resources to do 
the job that you needed to do, in other words, to hire the 
people. I hope that the budget that came out of appropriations 
continues that trend. I am, as you know, ranking member on the 
Appropriation's Subommittee on Homeland Security, and we tried 
to the best of our ability to provide the money that you need 
at DHS.
    Can you confirm that fact, or do you feel that there are 
some things that we should have done that we did not do?
    Ms. Duke. Yes, Senator Voinovich. Our appropriators have 
been very supportive of our request. Our next steps in the 
coming years will be towards rounding out those other 
acquisition career fields. So, we will continue to come in, but 
we do appreciate the support of the Appropriations Committee, 
and that has helped us a lot in what we are doing.
    Senator Voinovich. So, the 2010 budget will allow you to 
continue to do the job that you have undertaken?
    Ms. Duke. Yes, Senator Voinovich.
    Senator Voinovich. Good.
    Mr. McNally, I was very much involved in the effort to 
improve NASA's ability to recruit and retain a world-class, 
21st Century workforce, and worked with Sean O'Keefe on this 
issue. He came to me and said, ``we need these extra 
flexibilities.'' Senator Akaka and I worked together, and we 
gave NASA those flexibilities.
    In your opening statement, you speak about the value of 
NASA's contracting intern program. So, I was confused to see 
that, according to the program's Web site, NASA is not 
currently recruiting new interns. ``NASA is not currently 
recruiting new interns. Updates will be posted when 
available.'' And then the program Web site also indicates that 
NASA is ``Currently developing plans for spring semester 2008 
recruitment activities.''
    With such confusing and outdated information on your Web 
site, how can you expect to recruit the best and brightest 
acquisition officers?
    Mr. McNally. Senator, we need to update our Web site, and 
we will do that. Right now, I currently have eight interns 
within our agency, and what we are looking to do is we have to 
stay within the ceiling amount of personnel we have within our 
budget, but, on a regular basis, we are going to be looking at 
introducing more interns into NASA when we have the ability to 
put them into the workforce along with mid-level and other 
levels in the acquisition workforce.
    Senator Voinovich. Well, first of all, I would like you to 
get this corrected.
    Mr. McNally. Yes, Senator.
    Senator Voinovich. It does not look very good, does it?
    Mr. McNally. No, it does not.
    Senator Voinovich. Is the problem that you do not have the 
budget to hire the people you need to do the acquisition?
    Mr. McNally. No, sir. The challenge that we have is 
throughout the total budget is to look at how many Federal 
personnel there are within NASA among the various centers, and 
then look at how many do we hire and put into the intern 
program. And, so, what we are trying to do is balance how many 
personnel we can have at NASA with how many new persons we 
bring in and looking at the attrition rates and those things.
    Senator Voinovich. Well, can you tell me right now what 
NASA needs in terms of acquisition people?
    Mr. McNally. Right now, we have enough acquisition 
personnel. That includes the procurement personnel, contracting 
officer reps, and program project managers to perform the 
missions that we have on our plate. But that does not mean that 
we do not need to look forward in looking at recruiting new 
personnel because we do know that our existing personnel will 
leave either through retirement or through transfers to other 
organizations or do other things. So currently, we have enough 
personnel in our acquisition workforce to do the mission that 
we have.
    Senator Voinovich. So the fact is that you do not need an 
intern program right now?
    Mr. McNally. No, Senator, we do need an intern program, and 
we do have an intern program. I currently have eight personnel 
who are in that intern program at various centers, and, so, we 
will continue to have an intern program. What we need to do is 
to decide when do we recruit new personnel to be part of that 
intern program.
    Senator Voinovich. And you will do that when?
    Mr. McNally. I will have to take that for the record. I do 
not have a specific date to tell you.

          INFORMATION FOR THE RECORD SUBMITTED BY MR. MCNALLY
    NASA expects to recruit new candidates to the NASA Contracting 
Intern Program (NCIP) in spring 2010. The NCIP typically recruits 
participants on a biennial basis.

    Senator Voinovich. I would like to know how many interns 
you have, and how many it looks like you are going to need 
during the next 2 or 3 years because it seems to me that is 
part of the necessary planning to get the folks that you need 
onboard.

          INFORMATION FOR THE RECORD SUBMITTED BY MR. MCNALLY
    There are currently eight interns who began the 30-month NCIP 
program in 2008. NCIP participants currently are funded by the 
individual NASA centers. The 2010 recruitment efforts will be 
contingent upon NASA center funding and full-time equivalent (FTE) 
availability.

    In addition, I talked to Mr. Zients about the unique 
opportunity we have, because of the economic downturn, to be 
able to pick up some absolutely fantastic people to come to 
work for the Federal Government who in the past we might not 
have been able to get. If we do not zero in right now on that 
group of people, we are making a big mistake, because once they 
come in and if we do a good job of rewarding them and they see 
that they are moving on, they will remain in public service. We 
have this great opportunity that comes along maybe once in a 
lifetime. We should certainly be taking advantage of this 
opportunity, and I would like to hear from you about what you 
are going to do about this issue.
    Mr. McNally. Yes, Senator.
    Senator Voinovich. Ms. Lee, as you know, I am concerned 
that agencies receiving funding through the Recovery Act may 
not have the infrastructure to obligate such massive infusions 
of additional budgetary authority in an effective and efficient 
manner. In fact, I was going to ask that of Mr. Zients. We had 
the folks in from OMB to talk about how many of them do not 
have the people that they need right now to do the job, and now 
we are handing them more responsibility. The issue was have 
they looked out at the agencies that need the help in order to 
make sure that this Recovery Act money is not just squandered?
    So, what effect do you think implementing the Recovery Act 
will have on a critical workforce that you characterized in 
your prepared statement as ``overworked, under-trained, under-
resourced, and under-supported''?
    Ms. Lee. Sir, I am very concerned about that workforce. I 
still have a very strong affiliation with the acquisition 
workforce, and they have been asked, once again, to do a whole 
lot more very quickly under a bright, hot spotlight, and I 
think you are going to see some of the wear and tear and the 
strain on that workforce. It is unfortunate that our economy is 
such that it is--because I am hearing anecdotally that some 
people are staying that might have gone, and then some people 
are saying I am just exhausted. So, I think we really have to 
be sensitive to the workforce and the workload.
    David Drabkin of GSA, the Congress authorized some 
contingency contracting planning, and they are in the throws of 
getting that done. I think this would have been a great 
opportunity to have that in place and exercise that workforce 
for this additional workload. So, I hope we will continue along 
this path for future spikes of workload.
    Senator Voinovich. I think we gave DHS some extra money in 
the stimulus. Did you not get that?
    Ms. Duke. Yes, we did.
    Senator Voinovich. Ms. Lee, you have been around awhile. 
You have been in public service, and now, you are on the 
outside looking in.
    Were you here when I asked a question of the other 
witnesses about whether the Federal procurement process is 
organized properly?
    Ms. Lee. Yes, sir.
    Senator Voinovich. I would like to hear your opinion on 
whether or not you think it is organized properly.
    Ms. Lee. I think there are always improvements that can be 
made. Agencies are striving to do their individual piece. I 
will go back to say I think it is absolutely critical that we 
get an OFPP administrator and a GSA administrator pretty quick 
because they are key in driving forward the change and the 
execution that needs to take place.
    The agencies you have seen are more than willing and 
anxious and ready to take those steps forward, but they want to 
be sure they are going in the right direction, that they are 
following the Congress and the Administration's desires, and I 
think they need the leadership in place to say OK, here we go, 
and some pretty quick action and probably some pretty 
revolutionary actions need to take place, particularly in the 
flexibility in hiring.
    Senator Voinovich. OK, so, in your opinion, it is not that 
all these various agencies have to coordinate with each other 
that is the stumbling block in terms of getting some 
acquisition programs off the high-risk list, but that the 
problem is having the right people in those agencies?
    Ms. Lee. Yes, sir.
    Senator Voinovich. So that is a people problem, a human 
capital problem, not an organizational problem.
    Ms. Lee. Yes, sir, I believe it is, and I also do believe, 
as the last piece of my statement here says, we have to get 
together on some of the oversight. Oversight is absolutely 
essential, but when it has a workforce so paralyzed that they 
are concerned about taking measured, logical risks to get the 
job done, then we have created an environment that is just too 
hard to operate in, and probably will not be successful.
    Senator Voinovich. Remember when we passed the Stimulus 
Bill, and I think we required the agencies to report back in 30 
days with spending plans?
    Ms. Lee. Yes, sir.
    Senator Voinovich. And I just thought to myself, give me a 
break. It is probably going to take them 90 days, maybe 6 
months, before they even get the thing off the road. Now, all 
of a sudden, they are reporting back, and, of course, then 
we've paid for a whole bunch more staff at department 
Inspectors General.
    So, I suspect what you are saying is that these people are 
right now in a position where they are frightened about doing 
their jobs because of the big light being shined on them, and, 
perhaps, that might impede their ability to do the job that we 
want them to do.
    Ms. Lee. Yes, sir, I believe it does. Ms. Duke and I were 
in it together, and, who can forget the fewer than 40 
contracting officers during Hurricane Katrina who were 
subsequently reviewed by our 400 auditors? They are going to 
find something, and there is not malice or malaise here, it is 
people doing the best they can under very difficult 
circumstances.
    Senator Voinovich. Well, I always felt bad about that. I 
really do.
    Ms. Lee. Yes, sir.
    Senator Voinovich. Because we had some extraordinary 
performance from those people during that period of time.
    Ms. Lee. Yes, sir.
    Senator Voinovich. And I think they made great sacrifices, 
their families made great sacrifices, and then they read in the 
paper that they were a bunch of bums. I just really felt bad 
during that period. And I think Senator Akaka and I tried on 
occasion to let them know how much we appreciate the job that 
they did.
    Ms. Lee. And we saw that in the hiring impact at the 
Federal Emergency Management Agency (FEMA). When we tried to 
hire people, people were saying I do not want to work there. 
And part of that was I do not want to read in the newspaper 
that I am bad or the organization that I work for is bad. And I 
am very concerned from the outside looking in, and I would be 
interested in the rest of the panel, are we putting our 
acquisition workforce in that same consideration?
    At the Department of Defense, the example that I gave was 
should a contracting officer who uses their best judgment to 
get an action done be referred to the IG? Why are they going to 
try to get something done? I would just say come on in, 
auditors, and do the job for me. And we are putting people in 
that situation. How are we going to recruit, retain, and hire 
people if that is the environment we are asking them to work 
in? I think it is a concern.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. We 
will do a second round of questions.
    Ms. Duke, DHS is one of the largest procurement spending 
agencies in the Federal Government, and, as you know, last 
fall, GAO found that the Department still faced significant 
challenges in building and sustaining a capable acquisition 
workforce.
    What steps has the Department taken to address GAO's 
recommendations?
    Ms. Duke. Well, Senator Akaka, the GAO report said two 
things. One, it said we are taking a lot of steps forward, and 
then the main areas that it said that we needed significant 
improvement on were the strategic planning, and that is 
something I will admit we did not do in the earlier days. It is 
very hard to be strategically planning when you are dealing 
with the formation of a new department and $15 billion of 
contracts.
    So the main thing we are doing and the main focus of that 
GAO report was to do better strategic planning. So we are 
trying to get out of the mode of being reactive, filling just 
the vacancies as we have them, and through the Human Capital 
Office, having a strategic plan that has filling acquisition 
positions as well as the other challenges in DHS, such as 
intelligence analysts and others.
    So that is the main thing we are doing, is addressing the 
strategic planning issues, so that we are not in a reactive, 
tactical level in the future, we are more planning forward.
    Senator Akaka. Ms. Duke, DHS has faced challenges in 
collecting comprehensive data on the size and skills of its 
acquisition workforce and in planning strategically for that 
workforce.
    What specific actions is the Department taking to address 
these data and planning issues?
    Ms. Duke. The main action we are taking is trying to code 
the acquisition positions, and what I mean by that is we have 
to have a system by which people that are in the acquisition 
workforce, those billets are coded so that we can track them, 
we can track the people that are in them to make sure they have 
the right certification, the right recurring training, and 
then, as those people vacate those positions, that we fill them 
with the appropriately-qualified people.
    If I may add, Mr. Chairman, you asked the previous panel 
what can be done at the Federal level? This is an example of 
something that is intensely overhead, intensely difficult to 
stand up, and I would argue that not only just telling us we 
should do good and hire more people, but that some of these 
things that are systemic, I believe DOD is the only Federal 
agency that has coded positions that we can actually track and 
give the management attention to this. Those are some of the 
overhead functions that if we address them federally, I think 
it would be that we would get a lot better results more 
quickly, but, right now within DHS, we are doing it only for 
1102s at this point and plan on doing it for the other career 
fields.
    Senator Akaka. Mr. Bashista, most of DOE's workforce 
consists of contractors.
    What plans do you have to augment and improve your agency's 
acquisition workforce in the short-term so that government 
employees can appropriately oversee the contractor workforce?
    Mr. Bashista. Senator, one of the actions that we are 
taking is in response to the GAO's high-risk report, and one of 
the things that the Department has not done historically well 
is estimate with any type of accuracy the level or skill mix of 
acquisition and program managers and other support staff that 
are required to manage our major projects.
    In response to the GAO report, we went out and found a 
couple agencies that do a good job of doing that, the Naval 
Facilities Command and the Army Corps of Engineers. And, based 
on the benchmarking of those agencies, we have developed a 
staffing model, an algorithm if you will, and we are currently 
testing that model to determine the right size to manage and 
support our projects.
    Senator Akaka. Ms. Lee, you have a unique perspective as a 
former Federal acquisition leader who is now involved with the 
private sector at PSC. In your testimony, you recommend that 
the role of OFPP should be expanded.
    Would you please provide more detail on how OFPP's role 
should be altered?
    Ms. Lee. Mr. Chairman, as discussed here, DOD generally 
broadly defines acquisition. They track the systems engineers, 
the quality people, and the whole acquisition team.
    Generally in the civilian community, when you say 
``acquisition,'' people hear contracting and procurement, and 
they quickly nick it down to this small group of the 
acquisition community, and that puts a lot of pressure on that 
community, and I believe that if you look at the Office of 
Federal Procurement Policy, it reinforces that thought that 
acquisition really means those contracting and procurement 
people.
    And, so, I believe that role needs to be expanded to 
recognize that acquisition is a total team, that it is a 
strategic enterprise endeavor, and that if each agency looks at 
their total budget and the amount of their budget that goes out 
the door in business transactions, which include grants, we 
would recognize that team is very important and it needs the 
guidance and the structure to make sure it works, and I think 
that a Senate-confirmed political position at OFPP is an 
important lever to help the community achieve those goals.
    Senator Akaka. Mr. McNally, as you know, NASA spends the 
vast majority of its budget through contracts, and has been on 
GAO's High-Risk List for its contract management since 1990. 
While a recent GAO report credits your agency with improvement, 
it also found that NASA needs to pay more attention to 
effective acquisition project management.
    Please discuss what steps NASA is taking to respond to 
these findings.
    Mr. McNally. Yes, Mr. Chairman.
    One of the key steps that we have underway is a monthly 
baseline performance review. We have actually invited OMB, and 
they have sat in through some of those reviews, and at each 
review, which is done by NASA senior leadership, we look at our 
major programs and projects on a monthly basis to look at their 
cost schedule and technical performance, also hear from an 
independent group who also have done an assessment of those 
programs, to look at how well those programs are performing.
    During that meeting, we also hear from four functional 
areas. One of those areas is acquisition. So, I give a briefing 
on a monthly basis on upcoming acquisitions, some of the 
strategies we have, also focus on some mission directorates, 
which are themed that month, but also talk about areas of 
undefinitized contract changes: The numbers, where they are in 
negotiations, and areas of protest.
    So, all the areas of high-risk in acquisition we talk about 
on a monthly basis.
    And another important area that is talked about is the 
workforce. So, I give a presentation on acquisition, and then 
someone from the Human Capital Office talks about the workforce 
in general, but, also, we get into particular functional areas 
like the acquisition workforce.
    So that is one of the areas that is part of our corrective 
action plan in regards to the acquisition high-risk that NASA 
is under.
    Senator Akaka. This question goes to the Federal agencies. 
As you know, last week OMB issued guidance requiring agencies 
to develop insourcing guidelines.
    In the past, certain agencies have been criticized for 
relying on contractors to assist with procurement functions.
    Does your agency have sufficient, internal capacity to 
conduct the assessments necessary to determine which functions 
should be insourced? Ms. Duke.
    Ms. Duke. Mr. Chairman, yes, in DHS, as you know from 
previous hearings, we are very close to having that assessment 
done. This has been a priority of Secretary Napolitano.
    We do not have very much contractor support for the 
procurement workforce. We do have it in our program management 
program areas. We also are concerned with having enough Federal 
employees to actually manage our contracts, and, so, I have 
been in conversations with your staff, and we will be up this 
month to talk about the results of DHS's assessment of its 
workforce and contractor balance.
    Senator Akaka. Mr. McNally.
    Mr. McNally. We just recently received that memo, and, so, 
we are still analyzing it, but one of the key things that NASA 
does on its science projects is looking at ``Make-or-Buy'' 
decisions, and, actually, we compete our science projects 
between universities and some of our centers. So, we 
continually look to get the best ideas whether or not it is 
from an internal NASA scientist or from someone from the 
outside in the university arena. So, we continually use ``Make-
or-Buy'' decisions to decide whether or not we should be 
performing the function and how we should be using industry in 
performing functions to meet our mission.
    Senator Akaka. Mr. Bashista.
    Mr. Bashista. Mr. Chairman, like NASA, we developed a 
general framework based on the Omnibus Act's requirements 
pertaining to developing departmental guidelines on insourcing. 
We are reviewing the OFPP guidance and refining our draft 
implementing guidance, and we are working with our Office of 
Human Capital.
    Senator Akaka. Mr. McNally, as you know, on complex 
acquisition projects, contractors referred to as lead systems 
integrators sometimes help manage various other contractors 
working on the project. This may result in contractors defining 
the requirements for government contracts.
    This Subcommittee has seen firsthand problems that can 
arise through Lead System Integrators (LSIs) from problems with 
the Coast Guard's Deep Water Program. This program subsequently 
abandoned the use of LSIs, returning this function to 
government employees.
    Can you tell us what NASA's experience has been with the 
use of Lead System Integrators?
    Mr. McNally. Well, Mr. Chairman, I have been at NASA 4 
years, so, I really cannot address what we have done in the 
past, but I would like to address what we are doing in the 
future, and what I would use as an example is our Constellation 
Program, which is putting together the next Human Space Flight 
Program. There, NASA is the lead integrator. We are responsible 
for the total design of the constellation system where we 
utilize industry for various elements of that program, like 
parts of the launch vehicle and the space vehicle, but we are 
taking total responsibility for the complete system on that 
program. So, we are the lead integrator on that program.
    So, I can only address what we are currently doing on one 
of our newest major programs.
    Senator Akaka. I want to ask each of you if you have any 
final thoughts about this hearing and what we are trying to 
accomplish. We have come together seeking to strengthen the 
Federal acquisition workforce through government-wide 
leadership and initiatives. You have provided answers to our 
questions, and I want to give you a chance to provide any final 
thoughts you may have on this topic. So, let me start with Ms. 
Duke.
    Ms. Duke. Thank you, Mr. Chairman.
    I just wanted to commend the Subcommittee for having the 
two panels. I think that to make this work, we need not only 
the individual agencies, but we need the Federal agencies, and 
I think your attempts to have the more systemic OMB and others 
accountable and responsible for working with us as they try to 
do.
    Echoing Ms. Lee's comments, I think most of us know the 
right thing to do, and we do not need another layer of 
overseers telling us to, again, hire more people and do this, 
and, so, I do look forward to both individually with the fellow 
agencies and then with the Federal-wide agencies having the 
support to pull these forward because that will really be 
helpful to do some of this as a Federal Government because it 
is a big, uplift design, these controls and these systems, and 
I think we need to leverage each other's work and lessen the 
overhead for each of us.
    Senator Akaka. Thank you. Mr. McNally.
    Mr. McNally. Mr. Chairman, this forum has been great for me 
and I think the other agencies, and we need more like this, 
where we talk, and not just bring in one agency and talk about 
an issue, but bring in the other agencies plus OMB, plus Office 
of Personnel Management because it is an integrated challenge 
that we have when we talk about a workforce. We need to have 
the right numbers of personnel, but those personnel need to 
have the skills to do the job that they have to do.
    So, I commend this Subcommittee to bringing this type of 
forum together, and I will look forward to participating in 
future forums like this.
    Senator Akaka. Thank you. Mr. Bashista.
    Mr. Bashista. Mr. Chairman, thank you again for the 
opportunity to be here today.
    The invitation letter for this hearing solicited additional 
ideas or tools that we may need. One that I would like to 
offer, it is a little bit close to home because I have lost a 
couple of folks to the disparity and pay systems, I would 
suggest that the Subcommittee look at the potential of greater 
standardization. Agencies that do have pay banding have much 
greater flexibilities, as I understand it, and opportunities to 
offer higher salaries to folks than we can under the GS System, 
which is very restrictive, and, so, that would be one thing I 
would like to leave with you today. Thank you.
    Senator Akaka. Ms. Lee.
    Ms. Lee. Mr. Chairman, thank you for including me.
    I will say that one thing we are seeing from the industry 
side that is very concerning is regarding insourcing, and that 
is that, in the rush to be compliant and to work through those 
issues, agencies are doing what we call badge-flipping, which 
is going to contractor employees and saying we want you to 
convert.
    Now, the Professional Services Council absolutely supports 
inherently governmental work being done by government employees 
and critical and core mission work should be done by government 
employees, but we are concerned about this kind of broad stroke 
conversion, which, as a taxpayer, may not be the right 
strategy, and we could end up with a lot of government workers 
not doing the really strategic work. So, we are very concerned 
about that.
    We are also concerned, of course, from a taxpayer 
standpoint, at the long-term cost of bringing that work in-
house, which may not be the most efficient way to accomplish 
it.
    So, there are some concerns about the execution of 
insourcing.
    Senator Akaka. Well, thank you again to this panel. I just 
received word that Senator Voinovich is returning. I would be 
happy to wait a minute for him.
    In the meantime, I would like to say, as Senator Voinovich 
said, we have been working on this issue over a long period of 
time. With this new Administration and new thoughts on these 
problems, we are going to make every effort to improve the 
system. We are trying to include everybody in shaping the 
solutions: The private sector, our agencies, and our government 
leadership. We know that part of the problem is a lack of 
resources. We need to consider all of this as we do our 
strategic planning.
    We know that waste and abuse has been a huge problem. If 
reform is done correctly, it will certainly help us to improve 
rapidly in those areas. We are trying to ensure that the most 
expert people are in the proper positions to work in these 
important areas.
    Senator Voinovich and I have been working closely together 
on this. I also want to return to S. 736 and say that we are 
going to really work hard on improving hiring times and 
practices. This is something that we feel we can certainly 
streamline. With your help, your expertise, and your advice, I 
think we can succeed.
    And, with that, let me call on Senator Voinovich for his 
final remarks or any aditional questions that he may have.
    Senator Voinovich. Well, I regret that I had to cut out of 
here and not hear your responses to Senator Akaka.
    It was interesting that Mr. Zients was talking about the 
issue of each of the departments needing to make acquisition 
and procurement a priority. Ms. Lee, do you think the 
departments have made this a priority?
    Ms. Lee. I think they are beginning to. I do think with the 
new Administration--when I was at the Department of Defense, I 
used to keep a pie chart on my desk of the agency's budget, and 
when you look at that and see the amount of dollars that go out 
the door through business transactions, it is really a sobering 
thought, and I would think that all of the agencies probably 
want to do that, and when their senior leadership looks at 
their budget in that format, acquisition will move to a 
strategic, enterprise-wide role in almost all agencies, and I 
think that would be a fundamental movement when the senior 
leadership nods their head and says yes, this matters to me how 
I spend that money.
    I think OMB has demonstrated that through their recent 
memorandum. And the President's statement, those of us who have 
been in the acquisition community for years, I think we were 
probably all really quite excited to see the President make a 
statement about this community and its importance.
    So I think we are on the road. I do not think we are there 
yet.
    Senator Voinovich. If you were sitting in my chair and 
Senator Akaka's chair and you were genuinely concerned about 
this, this problem that has been around since 1990, what is it 
that you would ask the folks here to do in order to make sure 
that these problems are corrected and we get these programs off 
the high-risk list?
    Ms. Lee. I think the folks here are ready, willing, and 
able. They need the leadership permission, if you will, and 
support from their senior leaders.
    They certainly need the appropriate funding. For years, we 
have had caps on this, specific workforce caps and they could 
not hire, so, they need that authority. I do believe they can 
be successful with the leadership support, and the funding, and 
it needs to be recurring funding.
    We are certainly a huge supporter of Defense Acquisition 
Workforce Reformat, but if you are going to pay people out of 
that Act, you have to make sure it has recurring funding 
because, otherwise, you have incurred recurring salary money 
out of a fund that may not be recurring fund. So, how are you 
going to pay those people's salaries? And so, that exacerbates 
the problem of hiring and retaining and training.
    So, I think leadership, the flexibility to hire, the money, 
and I cannot say it enough, it is we have to figure out a way 
to streamline the hiring process.
    Sir, when I left the Federal Government, I had a job within 
weeks, and I did not have to fill out a 19-page application. I 
did not have to do knowledge, skills, and abilities (KSAs). I 
did not have to hire a contractor to help me write an 
application to get a Federal position, which, as we know, 
people are doing.
    So, something has got to happen, and quick. Our young 
people do not want to fill out--they are so computer literate 
that why is not this available to me? Why can't I respond 
online? Why can't you tell me, which is a very positive thing 
in S. 736--what my status is.
    As a parent, we would like to get them off the personal 
payroll as quickly as possible. Someone please hire them and 
tell us they have a job. Please, let them go. But having them 
sitting at home saying hey, mom, I am waiting. Let us move it 
along.
    Senator Voinovich. Yes. Well, I have heard war story after 
war story from people that really wanted to work for the 
Federal Government. They did not hear from the agency they 
applied to. When another job came along, they took the other 
job, and then 3, 4, or 6 months later, they found out that they 
could have had the job with the Federal Government, but by then 
they had already made a commitment to their new employer. They 
were people of integrity and stuck to what they promised the 
employer that they would stick around.
    The other issue that has been of concern to me is the 
complaint I hear from a lot of folks who have worked in highly 
technical areas, either for the national labs, the Department 
of Energy, or NASA. These skilled individuals just leave 
because they feel that the environment is not conducive to 
performance. By that I mean, they come in, they work hard, and 
they do not seem to be rewarded for their hard work. I have 
talked to a lot of people, so, it cannot be that they think 
they are better than someone else. They said the environment at 
such agencies is not the kind of environment that they had 
originally anticipated, particularly, for these highly-educated 
folks that are coming onboard to serve.
    What is your comment about how do we keep those people 
onboard?
    Do we need more pay-for-performance? I know Senator Akaka 
and I moved some of the technical people into the pay-for-
performance category like we do with the senior executive 
service. Could you comment on that?
    Mr. Bashista. Senator, I can speak to the acquisition 
workforce, and, again, we have been averaging about 9 percent 
attrition in the acquisition workforce. In the contracting 
field, I can speak specifically. With respect to laboratory 
employees and scientists, I am not equipped to really address 
that issue.
    But with respect to retention strategies, we do see a lot 
of the young kids that we bring in through these internship 
programs, grow them, train them, invest a lot of money, put 
through executive potential programs when they get to that 
stage, and then other agencies pursue them. So, my experience 
is it is not so much that they are dissatisfied with the work 
environment. I believe that most, at least those that I have 
worked directly with, are satisfied and believe that they are 
getting the training, but there are certain perks, if you will, 
and maybe incentive bonuses that we could not offer at one time 
to do that.
    Now, I will say, and, again, I think this is as a result of 
the better integration between our office and our Office of 
Chief Human Capital, is we are more aware of the authorities 
and the flexibilities that we have to offer hiring and 
retention bonuses, award and recognition programs, and the 
procurement organization ourselves, we do have various 
recognition programs for organizations and individuals.
    We have recently instituted a procurement management 
review, where we have a cross-function of field and 
headquarters folks who go out and review acquisition offices 
throughout the department, and one of the key features of that 
program, it is not just a got you in oversight and slam them 
over the head system, it is acknowledge management and let us 
share information. But a key part of that is recognizing 
excellent performers, and at least one individual at those 
sites, and we found that to be a meaningful incentive for some 
of these folks.
    So, I do think that we have problems, I do think the 
objectives of the legislation and the efforts of OMB and the 
other agencies will help us get there.
    Senator Voinovich. Great. One last thing. I think you 
mentioned in your testimony about direct hire authority.
    Mr. Bashista. Yes, sir.
    Senator Voinovich. We made that available, I thought, 
through our legislation to the Office of Personnel Management, 
and I know you have direct authority right now, Mr. McNally, do 
you not? That was, I think, one of the changes that was made.
    Mr. McNally. Yes.
    Senator Voinovich. GAO has that, I think. The Nuclear 
Regulatory Commissions has direct hire. And I am interested, 
were you unaware that it was available?
    Mr. Bashista. I think there was a late recognition in 
procurement of the authority and what was required to obtain 
it. And, again, I think the skill gap analysis requirements 
helped us to collect the data and the information to be able to 
support an objective determination by the Secretary to do that.
    I think, again, the import of this has been emphasized 
based on the need for staffing for Recovery Act, and our Chief 
Human Capital Office is supporting us in doing that, and I am 
hopeful that we have made the proper justification, and that we 
will secure that shortly.
    Senator Voinovich. When Mr. Berry was here, Senator Akaka 
and I indicated to him that one of our concerns was that a lot 
of the agencies were not using the flexibilities that were 
available to them and that he ought to try to go out and get 
his team to market these flexibilities so folks were definitely 
aware of what was available to them.
    Senator Akaka. Right.
    Senator Voinovich. Well, thank you very much for your 
testimony today.
    Senator Akaka. Thank you, Senator Voinovich.
    I am hopeful that we will remove the remaining roadblocks 
to effective recruitment, training, and retention of the best 
and brightest acquisition professionals. I appreciate all your 
thoughts on our Hiring Reform Bill because I think this is part 
of the solution.
    I want to thank Elaine Duke for her service with DHS. I 
know that you will make great contributions however you choose 
to serve the country in the future. Your work has been helpful 
not only to DHS, but also to this Subcommittee in its oversight 
role. I wish you and your family well in your future endeavors 
and thank you for bringing the 10 young people to this hearing. 
We appreciate their presence here.
    Again, thank you to our witnesses.
    The hearing record will be open for one week for additional 
statements or questions from other Members.
    This hearing is adjourned.
    [Whereupon, at 4:55 P.M., the hearing was adjourned.]















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
